         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       EPA Needs to Improve Its Efforts
       to Reduce Air Emissions at
       U.S. Ports
       Report No. 09-P-0125

       March 23, 2009
Report Contributors:               John Bishop
                                   Chris Dunlap
                                   Dan Howard
                                   Andrew Lavenburg
                                   Bill Nelson
                                   Rick Beusse




Abbreviations

CAA          Clean Air Act
CARB         California Air Resources Board
CMAQ         Congestion Mitigation and Air Quality
CO           Carbon Monoxide
ECA          Emission Control Area
EPA          U.S. Environmental Protection Agency
ETV          Environmental Technology Verification
FY           Fiscal Year
HC           Hydrocarbons
IMO          International Maritime Organization
kW           Kilowatts
MARPOL       International Convention for the Prevention of Pollution from Ships, 1973,
             as modified by the Protocol of 1978
MATES III    Multiple Air Toxic Exposure Study III
NAAQS        National Ambient Air Quality Standards
NCDC         National Clean Diesel Campaign
NOx          Nitrogen Oxides
OIG          Office of Inspector General
OMB          Office of Management and Budget
OTAQ         Office of Transportation and Air Quality
PM           Particulate Matter
PM 2.5       Fine Particulate Matter
ppm          Parts Per Million
SCAQMD       South Coast Air Quality Management District
SOx          Sulfur Oxides
TEU          Twenty-Foot Equivalent Unit



Cover photos:   Clockwise, from top left: container ship at berth, heavy-duty diesel trucks
                entering terminal gates, harbor tug, and cargo-handling equipment (terminal
                tractors and container handlers). Photos taken by U.S. EPA OIG staff during
                site visits to the Ports of Los Angeles and Long Beach.
                       U.S. Environmental Protection Agency                                                  09-P-0125
                                                                                                         March 23, 2009
                       Office of Inspector General


                       At a Glance
                                                                             Catalyst for Improving the Environment

Why We Did This Review             EPA Needs to Improve Its Efforts to Reduce
Controlling air emissions          Air Emissions at U.S. Ports
from ports was identified as a
key issue in a prior Office of      What We Found
Inspector General report. For
selected major U.S. ports, we      While EPA has issued air emissions regulations for most port sources, EPA’s
sought to determine whether        actions to address air emissions from large oceangoing vessels in U.S. ports have
EPA’s (1) actions to address       not yet achieved the goals for protecting human health. The Clean Air Act (CAA)
air emissions from                 provides EPA with the authority to regulate emissions from oceangoing vessel
oceangoing vessels have been       engines when these emissions cause significant harm to human health. For over 14
effective, and (2) strategy to     years, EPA has acknowledged that human health has been significantly harmed by
address air emissions from         emissions from these sources. Thus far, EPA has only regulated nitrogen oxides
port sources is sufficient to      emissions from U.S.-flagged vessels. EPA has chosen to defer taking a position on
protect human health and the       whether it has authority to regulate emissions from foreign-flagged vessels,
environment.
                                   although these vessels account for about 90 percent of all U.S. port calls. However,
Background                         after many years, EPA’s efforts with the International Maritime Organization (IMO)
                                   have the potential to significantly reduce these emissions. In October 2008 the IMO
The U.S. has about 360             adopted new international standards for oceangoing vessel engines and fuels. Still,
commercial sea and river           EPA must work to establish Emissions Control Areas for U.S. ports if significant
ports. Emissions from              emissions reductions are to be realized from oceangoing vessels.
activities at these ports have
significant environmental and      EPA’s strategy to address air emissions at U.S. ports is not sufficiently developed.
human health impacts. By           Although the Agency is working to reduce these emissions through various
2020, many major U.S. ports        regulatory and voluntary programs, it has not successfully implemented key
are expected to double the         elements of this approach. Despite the emphasis that EPA has placed on voluntary
amount of container traffic        partnership programs, such as regional diesel collaboratives, such initiatives have
they handle; some will triple.     not been implemented at many U.S. ports. In 2008, EPA built upon its efforts by
EPA uses a multipronged            publishing a Strategy for Sustainable Ports. This strategy is an Agency-wide, multi-
approach to reduce emissions
                                   media effort which includes goals and objectives for addressing key environmental
from these sources, including
implementing existing              issues at U.S. ports. EPA’s strategy sets goals, but lacks a transformation plan to
regulations, developing new        assure that the goals are realized. EPA did not include the appropriate performance
standards for diesel engines,      measures, milestones, and other management controls for many of the action items
and promoting emission             in the strategy. As a result, EPA lacks the management framework and controls
reductions in existing diesel      necessary to assure the successful implementation of its strategy.
engines through voluntary
strategies.                         What We Recommend
For further information, contact   We recommended that EPA (1) assess its authorities and responsibilities under the
our Office of Congressional,       CAA to regulate air emissions from foreign-flagged vessels in U.S. ports, and report
Public Affairs and Management
at (202) 566-2391.
                                   any shortfalls to Congress; (2) assess the extent to which Emissions Control Areas
                                   should be designated for U.S. coastal areas; and (3) revise its ports strategy to
To view the full report,           include a transformation plan. EPA’s comments on the first recommendation were
click on the following link:       not responsive and do not satisfy the intent of the recommendation. The Agency
www.epa.gov/oig/reports/2009/
20090323-09-P-0125.pdf             concurred with the second recommendation, but did not agree with the third
                                   recommendation. We consider Recommendations 1 and 3 open and unresolved.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                         March 23, 2009

MEMORANDUM

SUBJECT:               EPA Needs to Improve Its Efforts to Reduce Air Emissions at U.S. Ports
                       Report No. 09-P-0125


FROM:                  Wade T. Najjum
                       Assistant Inspector General for Program Evaluation

TO:                    Elizabeth Craig
                       Acting Assistant Administrator for Air and Radiation


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $1,680,991.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. For the recommendations over which we disagree, please
reconsider your position in your response to this final report. You may also propose alternative
actions that you believe will meet the intent of our recommendations in your response. We
have no objections to the further release of this report to the public. This report will be
available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0827
or najjum.wade@epa.gov; or Rick Beusse, Director for Program Evaluation, Air and Research
Issues, at (919) 541-5747 or beusse.rick@epa.gov.
EPA Needs to Improve Its Efforts to                                                                                          09-P-0125
Reduce Air Emissions at U.S. Ports




                                   Table of Contents

Chapters
   1     Introduction ...........................................................................................................      1

                 Purpose ..........................................................................................................    1
                 Background ....................................................................................................       1
                 EPA’s Multipronged Approach to Reducing Emissions at U.S. Ports.............                                          9
                 Noteworthy Achievements..............................................................................                12
                 Scope and Methodology.................................................................................               12

   2     Recent Agency and International Actions Have Potential to Significantly
         Reduce Harmful Emissions from Oceangoing Vessel Engines........................                                              13

                 Air Emissions from Large Oceangoing Vessel Engines
                      Have Been Essentially Unregulated by EPA .........................................                              13
                 EPA Has Chosen to Defer Taking a Position on Whether It
                      Has Authority to Regulate Foreign-Flagged Vessels ............................                                  16
                 Proposed Revisions to MARPOL Annex VI Adopted .....................................                                  18
                 EPA’s Delay in Controlling Oceangoing Vessel Emissions
                      May Have Long-Term Effects ................................................................                     20
                 Conclusions....................................................................................................      22
                 Recommendations .........................................................................................            22
                 Agency Comments and OIG Evaluation.........................................................                          22

   3   Implementing EPA’s Approach to Reducing Air Emissions at U.S. Ports
       Needs Improving .....................................................................................................          24

                 EPA’s Approach Is Incomplete .......................................................................                 24
                 Limited Data to Verify Results of Voluntary Actions .......................................                          25
                 Voluntary Initiatives Have Not Been Implemented at Many U.S. Ports ..........                                        27
                 Limited Resources for Implementing EPA’s Efforts
                       to Reduce Port Emissions .....................................................................                 29
                 EPA’s New Strategy for Sustainable Ports Lacks a Transformation Plan ......                                          31
                 Conclusions....................................................................................................      32
                 Recommendation ...........................................................................................           33
                 Agency Comments and OIG Evaluation.........................................................                          33


   Status of Recommendations and Potential Monetary Benefits.................................                                         35




                                                          - continued -
EPA Needs to Improve Its Efforts to                                                                                           09-P-0125
Reduce Air Emissions at U.S. Ports



Appendices
   A     Projected Growth of U.S. Ports Due to Container Shipping .............................                                         36

   B     Key EPA Regulations for Five Major Sources of Port Emissions ....................                                              39

   C     Details on Scope and Methodology.....................................................................                          42

   D     Details on EPA’s Rationale for Not Taking a Position on Whether
         It Has Authority to Regulate Foreign-Flagged Vessels .....................................                                     46

   E     Timeline of Selected EPA Regulatory Actions Since 1990
         to Address Air Emissions from Port Sources ...................................................                                 48

   F     Summary of Revised MARPOL Annex VI Standards
         Adopted by the IMO in October 2008 .................................................................                           49

   G     Status of Participation in Regional Diesel Collaboratives
         for Ports in Nonattainment Areas ........................................................................                      50

   H     Details of EPA’s Strategy for Sustainable Ports ..................................................                             51

   I     Agency Response to Draft Report .........................................................................                      54

   J     OIG Evaluation of Agency Response ....................................................................                         72

   K     Distribution ...............................................................................................................   80
                                                                                           09-P-0125



                                      Chapter 1
                                      Introduction
Purpose
                 This evaluation focuses on the efforts of the U.S. Environmental
                 Protection Agency (EPA) to control air pollution from mobile sources
                 operating in and approaching U.S. ports.1 The evaluation, completed in
                 accordance with the 2007 Annual Plan of the EPA Office of Inspector
                 General (OIG), was initiated because a prior OIG report2 found that EPA
                 faced significant challenges in controlling air emissions from port sources.

                 The objectives of our evaluation were to determine whether EPA’s:
                     •   actions taken to address air emissions from oceangoing vessels at
                         selected U.S. ports have been effective, and
                     •   management plan (strategy) to address emissions from port sources
                         is sufficient to protect human health and the environment at
                         selected major U.S. ports.
Background
                 The United States has approximately 360 commercial sea and river ports.
                 Air emissions from activities at these ports contribute to local air quality
                 problems impacting communities surrounding port areas. These emissions
                 have significant environmental and human health impacts, such as cancer
                 and asthma. EPA’s goal for clean air is to protect and improve the air so it
                 is healthy to breathe, and reduce risks to human health and the
                 environment. EPA employs a multipronged approach to address
                 emissions from port sources. This approach includes implementing
                 existing regulations, developing new standards for diesel engines,
                 promoting voluntary emission reductions from existing diesel engines, and
                 participating in international efforts to address air emissions from
                 oceangoing vessels.

                 Sources of Emissions
                 Almost all port emissions come from five diesel-fueled source categories,
                 including oceangoing vessels, heavy-duty trucks, cargo-handling
                 equipment, locomotives, and harbor craft. The emissions of greatest

1
  According to the Agency, air quality modeling recently conducted to support its proposed Emissions
Control Area application shows that emissions from as far as 200 nautical miles from ports impact air
quality, not only in the immediate port areas, but for 100 miles inland. When this report refers to
oceangoing vessels “in U.S. ports,” it is also referring to vessels approaching U.S. ports.
2
  Progress Report on EPA’s Nonroad Mobile Source Emissions Reduction Strategies, Report No. 2006-P-
00039, September 27, 2006.



                                                   1
                                                                                                  09-P-0125


concern from these sources are nitrogen oxides (NOx), particulate matter
(PM), sulfur oxides (SOx), carbon monoxide (CO), and hydrocarbons
(HC), as well as some toxic air pollutants. Figure 1-1 provides brief
descriptions for each of these major categories of port pollution.

Figure 1-1: Descriptions of the Five Major Sources of Port Emissions




                                                 Oceangoing
                                                 Vessels: Auto
                                             carriers, bulk carriers,
                                             containerships, cruise
                                             ships, and bulk liquid
                                                     tankers.




  Harbor Craft:                                                                                  Heavy-Duty
 Tugboats, towboats,                                                                              Trucks:
  ferries, excursion                                                                            Short-haul trucks
 vessels, government                                                                           transport goods to
  vessels, dredges,                                                                         warehouses near port.
                                                                                                Long-haul trucks
 commercial fishing
vessels, and recreational
                                                Major                                       transport goods across
                                                                                                  the country.
         vessels                              Pollutants:
                                               NOx, PM,
                                             SOx, CO, HC,
                                               air toxics




                        Locomotives:
                    Switcher locomotives                                 Cargo-Handling
                    (assemble trains and                                  Equipment:
                    move railcars) as well                              Equipment and vehicles
                         as line-haul                                    used to move cargo
                        locomotives.                                     within terminals and
                                                                         other off-road areas.




Source: The OIG compiled source categories based on review of existing literature on
        port air emissions.

Port sources also emit air toxics, most notably diesel exhaust. Other air
toxics emitted from diesel engines include benzene, 1,3-butadiene,
formaldehyde, acetaldehyde, acrolein, polycyclic organic matter, and
naphthalene. All of these compounds, except acetaldehyde, were
identified as national or regional risk drivers in EPA’s 1999 National-
Scale Air Toxics Assessment. These air toxics pose both cancer and non-
cancer health effects. For example, EPA’s December 2007 Advanced
Notice of Proposed Rulemaking stated that:



                                             2
                                                                                              09-P-0125


                      …mobile sources, including Category 3 marine [oceangoing vessel]
                      engines, were responsible for 44 percent of outdoor toxic emissions
                      and almost 50 percent of the cancer risk among the 133 pollutants
                      quantitatively assessed in the 1999 National-Scale Air Toxics
                      Assessment.

                 In January 2008, the South Coast Air Quality Management District
                 (SCAQMD) released its draft final report, Multiple Air Toxic Exposure
                 Study III (MATES III). MATES III studied the cancer risk from exposure
                 to toxic air pollution in the Southern California air basin. The study
                 measured air toxics at 15 locations throughout Southern California from
                 2004 to 2006. MATES III found the cancer risk rate from air toxics in the
                 Southern California air basin is nearly 1,200 per million, with the highest
                 cancer risks at about 3,700 per million. Most of the risks were from diesel
                 particulates. The highest air toxics risks are found near the port area, an
                 area near Central Los Angeles, and near transportation corridors. The
                 results from this study demonstrate the need for continued efforts to
                 reduce air toxic emissions, particularly from diesel engines. The Clean Air
                 Act set a lifetime cancer risk of 1 in 1 million as a threshold above which
                 regulation may be warranted for individual sources of air toxics.

                 A July 2008 National Oceanic and Atmospheric Administration study3
                 found that emissions from shipping have a significant impact on air
                 quality and health on both local and regional scales. Extensive
                 measurements of the emissions of light absorbing carbon aerosol, or soot,4
                 from commercial shipping showed increased concentrations of this aerosol
                 at U.S. ports on the East Coast, West Coast, and Gulf Coast. The study
                 also suggested that large oceangoing vessels may emit up to twice as much
                 aerosol as previously estimated.

                 Impacts of Air Pollution from Port Activities

                 Diesel and other emissions from port activities have significant human
                 health and environmental impacts in onshore communities. These impacts
                 include increased cancer rates, asthma, other respiratory and
                 cardiovascular diseases, and premature death. Port emissions also
                 contribute to the formation of ground level ozone, acid rain, and crop
                 damage. EPA has recognized that diesel engines at ports create emissions
                 that affect the health of workers and people living in nearby communities,
                 and contribute significantly to regional air pollution. EPA has determined
                 that diesel exhaust is “likely to be carcinogenic to humans by inhalation”
                 and that this hazard applies to environmental exposures.5
3
  Lack, D., B. Lerner, C. Granier, T. Baynard, E. Lovejoy, P. Massoli, A. R. Ravishankara, and E. Williams. Light
absorbing carbon emissions from commercial shipping, Geophys. Res. Lett., 35, L13815,
doi:10.1029/2008GL033906, 2008.
4
  Soot is diesel particulate matter, and results from burning fuel in diesel engines.
5
  U.S. EPA (2002). Health Assessment Document for Diesel Engine Exhaust, prepared by the National
Center for Environmental Assessment, Washington, DC, for OTAQ; EPA/600/8-90/057F.


                                                     3
                                                                                              09-P-0125


                 Recent studies show that populations living near large diesel emission
                 sources such as major roadways,6 rail yards, and ports7 are likely to
                 experience greater diesel exhaust exposure levels than the overall U.S.
                 population, exposing them to greater health risk. For example, according
                 to the California Air Resources Board, nearly 60 percent of the 2 million
                 people living in the area around the Ports of Los Angeles and Long Beach
                 have a potential cancer risk of greater than 100 in 1 million (due in part to
                 port emissions), while over 410,000 people living closest to the same ports
                 have a cancer risk greater than 200 in 1 million.8 Recent studies have also
                 shown an increased risk of cancer at other ports in the United States.9

                 EPA recently conducted an initial screening level analysis on the size of
                 the U.S. population living near 47 marine ports and 37 rail yards selected.
                 According to EPA, this was useful in beginning to understand the
                 populations exposed to diesel particulate matter in these areas. The results
                 indicate that at least 13 million people, including a disproportionate
                 number of low-income households, African-Americans, and Hispanics,
                 live in the vicinity of these facilities and are exposed to ambient diesel
                 particulate matter. Figure 1-2 below shows U.S. port locations and areas
                 exceeding air quality standards in 2007.




6
  Kinnee, E. J., J.S. Touman, R. Mason, J. Thurman, A. Beidler, C. Bailey, R. Cook. Allocation of onroad
mobile emissions to road segments for air toxics modeling in an urban area. Transport. Res. Part D 9: 139-
150, 2004.
7
  California Air Resources Board (CARB), Roseville Rail Yard Study, October 14, 2004; and CARB, Diesel
Particulate Matter Exposure Assessment Study for the Ports of Los Angeles and Long Beach, April 2006.
8
  EPA does not agree with California’s methodology to determine cancer risks.
9
  Environmental Science & Technology, 2007, 41, 8512–8518.


                                                     4
                                                                                          09-P-0125

                Figure 1-2: U.S. Ports and Areas Exceeding Air Quality Standards as of
                March 2007.




                Source: EPA Advanced Notice of Proposed Rulemaking, Control of Emissions From New
                        Marine Compression-Ignition Engines at or Above 30 Liters per Cylinder.
                        Federal Register: December 7, 2007, Volume 72, Number 235, pp. 69522-69552.
                        The figure depicts counties which were designated nonattainment for either or
                        both the 8-hour ozone National Ambient Air Quality Standards (NAAQS) and
                        PM2.5 NAAQS as of March 2007. It also shows the location of mandatory class I
                        Federal areas for visibility.

                Areas of the country where air pollution levels persistently exceed the
                ambient air quality standards10 may be designated as "nonattainment"
                areas. In 2007, 31 U.S. sea ports were located in nonattainment areas for
                ozone, fine particulate matter, or both. Further, in March 2008, EPA
                strengthened the air quality standards for ground-level ozone, revising the
                present 8-hour ozone standard from 0.084 to 0.075 parts per million
                (ppm). Many additional counties with ports are projected to be in
                nonattainment for the 0.075 ppm 8-hour ozone standard. According to
                EPA’s Office of Air Quality Planning and Standards, EPA’s goal is to
                improve the air quality in areas where it is unacceptable and prevent
                deterioration in areas where the air is relatively free of contamination.

                In addition to public health impacts, serious public welfare and
                environmental impacts are associated with mobile source emissions at

10
  EPA has established National Ambient Air Quality Standards (NAAQS) for six pollutants common
throughout the United States. These include ozone and particulate matter.


                                                  5
                                                                                               09-P-0125


                 ports. Pollutants such as NOx, SOx, and fine particulate matter (PM2.5) can
                 impair visibility in many parts of the United States. These pollutants
                 contribute to structural damage to bridges and other structures by
                 corrosion or erosion, and damage the exteriors of buildings, monuments,
                 and other culturally important articles. Finally, NOx and SOx emissions
                 from diesel engines contribute to increased acidity and higher amounts of
                 dissolved chemical nutrients (especially nitrogen and sulfur) in water
                 bodies. For example, airborne NOx from diesel and other sources
                 contributes about 32 percent of the excess nitrogen load to the Chesapeake
                 Bay, North America’s largest and most biologically diverse estuary, home to
                 more than 16 million people and 3,600 species of plants, fish, and animals.11

                 Projected Port Growth and Impacts

                 Generally, port emissions are expected to grow substantially over the next
                 several decades, with oceangoing vessels showing the largest growth.
                 According to EPA, excluding further regulatory controls,12 NOx emissions
                 from oceangoing vessels are projected to more than double by 2030,
                 growing to 2.1 million tons a year (or 34 percent of U.S. mobile source
                 NOx emissions).13

                 In 2007, Category 3 marine engines (large oceangoing vessel engines)14
                 emitted more than half of the mobile source SOx inventory for the entire
                 United States (almost 530,000 tons). According to EPA, without further
                 regulatory controls, these emissions are expected to increase to
                 approximately 1.4 million tons by 2030, or 95 percent of mobile source
                 emissions. Without additional regulations or controls, some source
                 categories will represent an increasingly larger percentage of the Nation’s
                 mobile source emissions inventory. Figure 1-3 illustrates the projected
                 emissions of NOx, PM2.5, and SO2 for mobile sources categories as a
                 percentage of the total U.S. mobile source inventory in 2001 and 2030.




11
   EPA Relying on Existing Clean Air Act Regulations to Reduce Atmospheric Deposition to the Chesapeake
Bay and Its Watershed, EPA Office of Inspector General, Report No. 2007-P-00009, Feb. 28, 2007.
12
   On October 9, 2008, the International Maritime Organization (IMO) adopted new international standards
for NOx from oceangoing vessel engines and sulfur in their fuels. Estimates in this report do not reflect
potential reductions that may be achieved from recent revisions to IMO Annex VI standards. As discussed
in Chapter 2, EPA will need to assess the impacts of these revisions on the Agency’s ability to meet its
responsibilities under the CAA.
13
   These projections are based on growth rates ranging from 1.7 to 5.0 percent per year, depending on the
geographic region (2007 EPA Advanced Notice of Proposed Rulemaking).
14
   For the purpose of emission regulations, marine engines are divided into three categories based on
displacement (swept volume) per cylinder. Each of the categories represents a different engine technology.
Category 1 and Category 2 marine diesel engines are used to provide propulsion power on many kinds of
vessels including tugboats, pushboats, supply vessels, fishing vessels, and other commercial vessels in and
around ports. They are also used as stand-alone generators for auxiliary electrical power on many types of
vessels. Category 3 marine diesel engines are very large and are used for propulsion power on oceangoing
vessels such as container ships, oil tankers, bulk carriers, and cruise ships.


                                                     6
                                                                                                        09-P-0125

Figure 1-3: Projected Emissions Contributions of Mobile Source Categories
as a Percentage of the Total U.S. Mobile Source Inventory for 2001 and
2030, Based Upon Current Regulations.

       Figure 1-3-a: Mobile Source Category NOx Emissions as a Percentage of Total
                      U.S. Mobile Source Emissions Inventory.


                              70

                              60

                              50

                              40
           Percent Total                                                                                           2001
          Mobile Emissions    30                                                                                   2030
                              20

                              10

                               0




                                                                         D



                                                                                  Y



                                                                                                    D
                                                          O
                                    V




                                                                                                              ir
                                                 2




                                                                                 W
                                                                      R
                                                C
                                   G




                                                                                               R



                                                                                                             A
                                                          C



                                                                     N




                                                                                              N
                                   O




                                                        LO




                                                                             H
                                                &




                                                                 nd




                                                                                           er
                                            1
                                            C




                                                                                        th
                                                               La




                                                                                       O
                                                              Sources




       Figure 1-3-b: Mobile Source Category PM2.5 Emissions as a Percentage of Total
                      U.S. Mobile Source Emissions Inventory.


                              45




                              30
            Percent Total
           Mobile Emissions
                                                                                                                    2001

                              15                                                                                    2030




                               0
                                                                      D



                                                                              Y



                                                                                                D
                                                          O
                                        V




                                                                                                          ir
                                                    2




                                                                             W
                                                                     R
                                       G



                                                C




                                                                                           R



                                                                                                         A
                                                          C


                                                                 N




                                                                                            N
                                   O




                                                        LO




                                                                             H
                                                &




                                                                nd




                                                                                         er
                                            1
                                            C




                                                                                      th
                                                              La




                                                                                  O




                                                              Sources




                                       7
                                                                                                          09-P-0125

                          Figure 1-3-c: Mobile Source Category SO2 Emissions as a Percentage of Total
                                       U.S. Mobile Source Emissions Inventory.


                                                  100


                                                   75


                                                                                                               2001
                                Percent Total      50
                              Mobile Emissions                                                                 2030


                                                   25



                                                    0




                                                                                       D



                                                                                            Y



                                                                                                          D
                                                                           O
                                                         V




                                                                                                               ir
                                                                     2




                                                                                           W
                                                                                       R
                                                        G



                                                                 C




                                                                                                     R



                                                                                                              A
                                                                           C



                                                                                   N




                                                                                                      N
                                                        O




                                                                         LO




                                                                                           H
                                                                 &




                                                                                  nd




                                                                                                   er
                                                             1
                                                             C




                                                                                                th
                                                                                La




                                                                                                O
                                                                               Sources

                          Legend for Figure 1-3-a to 1-3-c:
                                OGV           Oceangoing Vessels
                                C1 & C2       Category 1 and Category 2 marine engines15
                                LOCO          Locomotives
                                Land NRD Land-based nonroad diesel
                                HWY           Highway
                                Other NRD Other nonroad diesel
                                Air           Aircraft

                 Source: OIG analysis of EPA Advanced Notice of Proposed Rulemaking; Control of
                         Emissions of From New Marine Compression-Ignition Engines at or Above 30
                         Liters per Cylinder; Proposed Rule. Federal Register pp. 69522-69552,
                         December 07, 2007.

                 Increasing emissions at ports can be attributed to rising demands in
                 international trade, as well as expanded port infrastructure. The Panama
                 Canal is being expanded to accommodate larger oceangoing vessels and
                 allow for more frequent use. According to the Panama Canal Authority,
                 the expansion is scheduled to be completed in 2014. This expansion will
                 include a new wider, deeper channel that will allow larger ships to pass
                 through and the number of ships to increase. To accommodate the
                 increased cargo volume attributable to the Panama Canal expansion, some
                 Eastern U.S. and Gulf Coast ports are expected to significantly increase
                 their capacity.

                 Figure 1-4 illustrates the expected growth in container trade projected at
                 selected U.S. ports between 2004 and 2020.




15
  These engines are typically are used to provide propulsion power on many kinds of vessels including
tugboats, pushboats, supply vessels, fishing vessels, and other commercial vessels in and around ports.


                                                        8
                                                                                       09-P-0125

       Figure 1-4: Projected Growth in U.S. Maritime Container Trade at Selected
                         U.S. Ports (2004-2020)




          Source: American Society of Civil Engineers 2005 Report Card for America’s
                  Infrastructure, U.S. Department of Transportation.

          For example, according to the U.S. Department of Transportation, by 2020
          the Port of Savannah is projected to increase its container traffic by over
          400 percent. Similarly, the Ports of Los Angeles and Long Beach
          (combined) and Houston are expected to increase their container traffic by
          over 300 percent. Increased cargo volume means more activity for cargo-
          handling equipment, heavy-duty trucks, harbor craft, and locomotives.
          This type of growth will add to air quality concerns in these areas.
          Appendix A provides details on projected growth at U.S. ports due to
          container shipping and port expansion plans.

EPA’s Multipronged Approach to Reducing Emissions at U.S.
Ports
          EPA employs three main approaches to reduce emissions from port-
          related mobile sources. These approaches include (1) developing emission
          standards and regulations, (2) using voluntary strategies to promote
          emission reductions from existing diesel engines, and (3) participating in a
          U.S. delegation to establish new international standards for oceangoing
          vessel emissions.
          EPA Regulatory Authority
          The Clean Air Act (CAA) seeks to protect human health and the
          environment by authorizing EPA to set limits on how much of a pollutant


                                            9
                                                                   09-P-0125


can be in the air anywhere in the United States. EPA’s goal is to ensure
that all Americans have the same basic health and environmental
protection. To achieve this goal, the CAA authorizes EPA to regulate
significant sources of pollution from nonroad sources. Specifically,
Section 213 of the CAA directs the Administrator to issue (and, from time
to time, revise) regulations containing emission standards for those classes
or categories of new nonroad engines or new vehicles which the
Administrator determines to be significant contributors to air pollution.
Since the 1990 amendments to the CAA, EPA has issued various
regulations to control emissions from the five major categories of port
pollution. For example, the Agency has issued regulations for oceangoing
vessels, heavy-duty diesel trucks, cargo-handling equipment, harbor craft,
and locomotives. Appendix B contains a detailed description of EPA
progress to date in each of these categories.

A key program EPA uses to address air emissions from port sources is the
National Clean Diesel Campaign (NCDC). EPA launched the NCDC in
2004 to mitigate the impact of diesel emissions on public health and the
environment. The NCDC includes both regulatory and voluntary
approaches. EPA stated that the NCDC works aggressively to reduce
pollution from diesel engines across the country through implementing
varied control strategies and involving national, State, and local partners.
The NCDC established a collaborative process to help States meet the
National Ambient Air Quality Standards and other air quality goals. The
NCDC attempts to help reduce emissions from a variety of industrial
sectors including ports, freight, construction, and agriculture.

Key EPA Voluntary Strategies – Clean Ports USA Program,
SmartWay Transport Partnership, and Regional Diesel
Collaboratives

Operating under the umbrella of the NCDC, EPA established the Clean
Ports USA program in 2005 to address diesel emissions from port sources
through the use of voluntary strategies. Clean Ports USA is an incentive-
based, voluntary program designed to reduce emissions from existing
diesel engines and nonroad equipment at ports. The strategies provided as
part of the Clean Ports USA program include a list of technological
strategies (e.g., clean fuel, retrofit, repair, rebuild, repower, and
operational strategies) for stakeholders, as well as information on grants
and other funding opportunities. Another component of the NCDC is the
SmartWay Transport Partnership, a program between EPA and the freight
sector to voluntarily reduce greenhouse gas and air pollution emissions.

While the NCDC and Clean Ports USA programs are national in scope,
EPA said that much growth in these programs will come from focused
partnerships and collaborative efforts at the State and local level, including
regional diesel collaborative initiatives. The goal of these collaboratives is


                               10
                                                                  09-P-0125


to create partnerships with businesses, government, community
organizations, and other stakeholders at the regional level in an effort to
reduce diesel emissions. According to EPA, regional diesel collaboratives
are able to acquire funding for local projects in addition to what can be
provided at the national level for local emission reduction projects. The
NCDC and the seven regional diesel collaboratives are broad-based efforts
to reduce diesel emissions and do not necessarily focus on those sources
specifically operating at ports.

EPA’s Work with the International Maritime Organization

In addition to the Agency’s regulatory efforts and promoting voluntary
initiatives and partnerships, EPA has pursued emission reductions among
the international community through negotiations at the International
Maritime Organization (IMO). Created in Geneva in 1948, the IMO's
main task has been to develop and maintain a comprehensive regulatory
framework for shipping. Its scope of activity today includes safety,
environmental concerns, legal matters, technical cooperation, maritime
security, and shipping efficiency.

One function of the IMO is to administer the International Convention for
the Prevention of Pollution from Ships, 1973, as modified by the Protocol
of 1978 (known as MARPOL). The purpose of MARPOL is to minimize
sea pollution, including dumping, oil, and exhaust pollution. MARPOL
Annex VI specifically relates to air pollution from ships. Annex VI was
adopted in 1997 and entered into force in May 2005. It applied to engines
installed on ships constructed on or after January 1, 2000, or engines that
undergo a major conversion on or after that date. The IMO originally
estimated that Annex VI standards would result in a 30 percent reduction
in new engine NOx emissions. However, the actual reduction will be
significantly smaller, perhaps on the order of 15 to 20 percent by 2030,
due to the long transition time required for new engines to enter the fleet,
according to EPA.

In February 2007, the U.S. delegation submitted a proposed revision to
MARPOL Annex VI which included long-term standards for NOx, PM,
and SOx based on advanced technology and providing industry with
appropriate lead time. In April 2008, an IMO subcommittee reached
agreement on revised standards for MARPOL Annex VI that were similar
to those proposed by the U.S. In October 2008, parties to MARPOL
Annex VI adopted new international standards for NOx emissions for
marine diesel engines above 130kW (including oceangoing vessel
engines) and the sulfur content of fuel used onboard ships (to address SOx
and PM emissions). At the same time, according to EPA, the U.S.
deposited its instrument of ratification with the IMO and adopted
amendments to the "Act to Prevent Pollution from Ships,” a U.S. Act



                              11
                                                                            09-P-0125


         which makes it possible for the U.S. to enforce the Annex VI standards for
         foreign-flagged vessels that enter U.S. ports and territorial waters.

Noteworthy Achievements

         Through its regulatory process, EPA has successfully implemented several
         emission reduction requirements for port sources. For example, the
         Agency has issued emission standards that apply to engines on heavy-duty
         diesel trucks, cargo-handling equipment, small marine vessels, and
         locomotives. While emission reductions from these regulations may not
         be fully realized for several years, EPA projects its rulemakings to achieve
         significant emission reductions from these categories of port sources by
         2030.

         In addition to these regulations, the Agency has helped to reduce
         emissions from the existing fleet of diesel engines operated at U.S. ports
         through its NCDC. Some examples include:

            •   Retrofitting cargo-handling equipment at the Port of Tacoma with
                emission reduction technology.
            •   Using low sulfur diesel fuel at the Ports of Boston, Houston, and
                New York/New Jersey.
            •   Retrofitting rubber tire gantry cranes, stackers, and tractors at the
                Port of Boston with emission reduction technology.
            •   Facilitating installation of shore power infrastructure at the Los
                Angeles, Long Beach, and Seattle ports.

Scope and Methodology
         We conducted our evaluation from November 2006 to December 2008.
         We conducted a site visit to the Ports of Los Angeles and Long Beach,
         interviewed managers and staff and collected data from eight EPA
         regions, one State agency, three port authorities, and one global shipping
         company. We designed and implemented a survey to collect data on
         EPA’s efforts to reduce air emissions at 18 of the largest U.S. ports.

         We conducted this performance evaluation in accordance with generally
         accepted government auditing standards. Those standards require that we
         plan and perform the evaluation to obtain sufficient, appropriate evidence
         to provide a reasonable basis for our findings and conclusions based on
         our evaluation objectives. We believe the evidence obtained provides a
         reasonable basis for our findings and conclusions based on our evaluation
         objectives. Appendix C provides details on our scope and methodology.




                                       12
                                                                           09-P-0125




                              Chapter 2
   Recent Agency and International Actions Have
 Potential to Significantly Reduce Harmful Emissions
           from Oceangoing Vessel Engines
         To date, EPA’s actions to address air emissions from oceangoing vessel
         engines in U.S. ports and along U.S. coastlines have not been successful in
         achieving EPA’s clean air goal of protecting and improving air quality.
         The CAA provides EPA with the authority to promulgate standards to
         regulate emissions from oceangoing vessel engines when these emissions
         cause significant harm to human health. Oceangoing vessels contribute
         significantly to elevated air pollution levels in many nonattainment areas
         around U.S. ports. For over 14 years, EPA has acknowledged that human
         health is being significantly harmed by air emissions from these vessels in
         U.S. ports. While EPA has issued regulations for air emissions from most
         other port sources, to date EPA has only regulated NOx emissions, and
         only from U.S.-flagged vessel engines.

         EPA has not regulated any air emissions from foreign-flagged vessel
         engines in U.S. ports, although these vessels account for approximately 90
         percent of all U.S. port calls. EPA has chosen to defer taking a position on
         whether the Agency has authority to regulate air emissions from foreign-
         flagged vessel engines. EPA decided not to issue emission standards for
         oceangoing vessel engines while negotiating with IMO to set more
         stringent standards. This decision not to issue emission standards has
         delayed controlling emissions from foreign-flagged vessels entering U.S.
         ports. However, after many years, EPA’s efforts to work with the IMO
         have the potential to significantly reduce oceangoing vessel emissions. In
         October 2008, the IMO adopted new international standards for NOx
         emissions from oceangoing vessel engines and the sulfur content of fuels
         used by such vessels. Still, EPA must work with the IMO to establish
         Emission Control Areas (ECAs) if significant reductions are to be realized
         from foreign-flagged vessels.

Air Emissions from Large Oceangoing Vessel Engines
Have Been Essentially Unregulated by EPA
         In 1994, EPA proposed to regulate emissions from oceangoing vessel
         engines along with other nonroad engine sources. However, due in part to
         comments to the proposal, EPA chose to delay the establishment of
         emission standards for oceangoing vessel engines.
         To date, EPA has not developed emission standards for large diesel
         engines, known as Category 3 marine engines, except for a NOx standard


                                       13
                                                                                               09-P-0125


                 issued in 2003. Also, EPA’s NOx standard only applies to engines on U.S.
                 vessels, which represent about 10 percent of U.S. port calls. Category 3
                 marine engines emit significant amounts of air pollution in and around
                 ports, as well as along U.S. coastlines. For example, the SCAQMD in
                 California stated in 2007 that marine vessels in the South Coast Air Basin
                 (which includes Los Angeles) emitted more nitrogen oxides than the
                 combined total of all refineries, power plants, and the other 350 largest
                 stationary sources in the area.

                 NOx
                 In its 2003 rulemaking, EPA set its NOx standards for U.S.-flagged vessel
                 engines equivalent to the Tier 1 standards adopted by the IMO in
                 MARPOL Annex VI in 1997. These international standards allow
                 oceangoing vessel engines to emit relatively high levels of NOx. For
                 example, EPA’s NOx standards for heavy-duty diesel trucks16 are from 36
                 to 63 times more stringent than those for Category 3 oceangoing vessel
                 engines, depending on engine speed. EPA’s 2003 NOx emission standards
                 for oceangoing vessel engines are projected to result in a 20 percent
                 reduction in NOx emissions from oceangoing vessel engines by 2030.
                 According to EPA, without more stringent controls on Category 3
                 oceangoing vessel engines, NOx emissions from oceangoing vessels are
                 projected to more than double by 2030, growing to 2.1 million tons a year.
                 According to EPA’s projections, Category 3 oceangoing vessel engine
                 emissions alone would represent 34 percent of all U.S. mobile source NOx
                 emissions.

                 PM and SOx
                 In its 2003 rulemaking, EPA’s regulation for Category 3 marine engines
                 did not contain any emissions limits or standards for PM or SOx, although
                 PM and SOx emissions from such engines are expected to increase
                 substantially in the future. PM2.5 emissions are expected to almost triple
                 to become 45 percent of U.S. mobile source PM2.5 emissions by 2030, and
                 SOx emissions are expected to increase to 94 percent of mobile source
                 emissions at that time.17 A 2007 study estimated that PM2.5 emissions

16
   Office of Transportation and Air Quality (OTAQ) representatives said comparing emission standards
between mobile source sectors should be made on “an equivalent technology basis.” According to OTAQ,
Tier 1 Category 3 marine engine standards should not be compared against Tier 4 onroad standards. They
suggested a more appropriate comparison might be between Tier 1 Category 3 standards and Tier 2
nonroad standards. We believe it is illustrative to compare the existing standards since, prior to 1993,
heavy-duty diesel trucks used fuel with 5,000 ppm sulfur, but now use fuel with 15 ppm sulfur, a more than
99 percent reduction achieved over approximately the same period of time that EPA has acknowledged that
human health is being significantly harmed by oceangoing vessel emissions in U.S. ports. It is also
illustrative because EPA overcame concerns about the potential impact to diesel engines, costs, and lead
time for manufacturers and refineries.
17
   Particulate matter is a complex mixture of extremely small particles and liquid droplets. Particles are
made up of a number of components, including acids (such as nitrates and sulfates) and organic chemicals.
The size of particles is directly linked to its potential for causing health problems. “Fine particles” are
those particles that are 2.5 micrometers in diameter and smaller. There is a NAAQS standard for PM2.5 .


                                                     14
                                                                                                 09-P-0125


                  from ships are responsible for approximately 8,800 deaths in North
                  America annually.18

                  Although EPA has not issued a standard for SOx emissions, the Agency
                  said in its 2003 rule that it fully expected that vessels would comply with
                  the IMO Annex VI standards, which included a fuel standard for SOx.
                  The Tier 1 fuel standards in Annex VI require that oceangoing vessels use
                  fuel with a sulfur content less than or equal to 45,000 parts per million
                  (ppm).19 These standards allow oceangoing vessels to use residual fuel,
                  which is a waste product of the oil refining process and produces high SOx
                  and direct sulfate PM emissions. It is the least expensive fuel that
                  oceangoing vessels can burn. When residual fuel is burned, it emits high
                  levels of SOx. The higher the sulfur content in the fuel, the greater the
                  SOx and PM emissions. The former OTAQ Associate Director said that
                  residual fuel with a sulfur content of 50,000 ppm would be the highest
                  sulfur fuel that a Category 3 engine would be capable of burning. By
                  comparison, the EPA standard for sulfur content in fuel used in on-
                  highway diesel engines (such as trucks and buses) in the United States is
                  set at 15 ppm. Thus, the SOx emission standard for cars, trucks, and some
                  other nonroad sources is 3,000 times more stringent than the standard for
                  Category 3 marine diesel engines. EPA said it would consider requiring
                  lower sulfur fuel in a future rulemaking.

                  CO, HC, and Air Toxics
                  In its 2003 rulemaking, EPA’s regulation for Category 3 marine engines
                  did not contain any emissions limits or standards for carbon monoxide
                  (CO), hydrocarbons (HC), or air toxics. EPA stated in its 2003
                  rulemaking that CO and HC emission standards for oceangoing vessel
                  engines may be necessary to prevent increases in these pollutants that
                  might otherwise result from controlling NOx emissions alone. EPA also
                  has not established any air toxics emission standards for Category 3
                  marine engines on oceangoing vessels. The Agency expects to achieve air
                  toxic emissions reductions as a co-benefit of reducing SOx and PM
                  emissions in a future rulemaking requiring use of lower sulfur fuel in
                  marine diesel engines.

                  During our fieldwork, OTAQ told us the Agency did not have a timetable
                  for regulating CO or HC emissions from oceangoing vessel engines
                  because EPA’s focus should be on higher priority SOx, NOx, and PM
                  emissions. However, in its comments to our draft report the Agency stated
                  that “EPA’s approach to addressing HC and CO has evolved since the IG
                  discussed this with OTAQ representatives.” The Agency now plans to


18
   Corbett, James J., James J. Winebrake, Erin H. Green, Prasad Kasibhatla, Veronika Eyring, and Axel
Lauer, Mortality from Ship Emissions: A Global Assessment, Journal of Environmental Science &
Technology, 2007, 41, 8512-8518.
19
   A standard of 45,000 ppm allows for sulfur concentrations of up to 4.5 percent of the fuel, by weight.


                                                      15
                                                                                           09-P-0125


                 address emission limits for CO, HC, and air toxics in its Category 3
                 marine engine rule scheduled to be finalized in December 2009.

EPA Has Chosen to Defer Taking a Position on Whether It Has
Authority to Regulate Foreign-Flagged Vessel Engine Emissions
                 For more than 14 years, EPA has not taken a position on whether it has the
                 authority to regulate emissions from foreign-flagged vessel engines when
                 operating in and around U.S. ports. The issue concerns interpreting the
                 words “new nonroad engines” in the Clean Air Act. The Act provides that
                 EPA may regulate new nonroad engines. In a draft notice of proposed
                 rulemaking (Draft Notice),20 EPA stated it would be reasonable to
                 interpret new nonroad engines to include marine engines installed on
                 foreign-flagged vessels that enter U.S. ports. According to EPA’s Office
                 of General Counsel, EPA has identified arguments both for and against
                 this interpretation. EPA included in a draft proposed rule to OMB
                 arguments supporting such an interpretation, stating that the Agency “has
                 discretion in interpreting [CAA] section 213 as it applies to new marine
                 engines and vessels, and is considering which interpretation is most
                 appropriate from a policy perspective.” In its final rule, EPA did not
                 interpret new nonroad engines to include engines installed on foreign-
                 flagged vessels.

                 After more than 5 years, EPA still has not taken a position on whether
                 such an interpretation would be reasonable in light of the language and
                 purpose of section 213 of the CAA. Therefore, according to OTAQ and
                 the Office of General Counsel, this issue is still before the Agency, and
                 will be considered again in a 2009 Category 3 marine engine rulemaking.
                 The Agency’s rationale for not taking a position is detailed in Appendix
                 D. The OIG believes strong arguments support the conclusion that EPA
                 has the authority under the Clean Air Act to regulate foreign-flagged
                 vessel engine emissions when operating in and around U.S. ports.

                 EPA Stated a Need to Regulate Foreign-Flagged Vessel Engine
                 Emissions in 2002
                 EPA identified marine diesel engines as a significant source of emissions
                 that could be regulated under Section 213 of the CAA. Section 213(a)(3)
                 requires EPA to adopt regulations that contain standards reflecting the
                 greatest degree of emission reductions achievable through the application
                 of technology that will be available, taking into consideration the
                 availability and costs of the technology, and noise, energy, safety factors,
                 and existing motor vehicle standards. In 2002, EPA indicated in its Draft
                 Notice to the Office of Management and Budget (OMB) that it was
                 appropriate to regulate emissions from new engines installed on foreign-
20
  Draft Proposal for the Control of Emissions from New Marine Compression-Ignition Engines at or
Above 30 Liters/Cylinder, documents forwarded to the Office of Management and Budget, April 5, 2002,
EPA Docket ID No.EPA-HQ-OAR-2003-0045-0077.


                                                   16
                                                                  09-P-0125


flagged vessels. EPA stated in its Draft Notice to OMB that emissions
from foreign-flagged vessel engines contributed significantly to air quality
problems in the U.S. Therefore, EPA regulation of engines on these
vessels would be consistent with the goal of CAA Section 213. EPA
stated that:
       …it may be appropriate and within EPA’s authority to treat
       engines on foreign vessels that enter U.S. ports as new engines and
       subject to regulation under section 213 based on their significant
       emissions contribution to air quality problems in the United States.
Further, the Agency indicated that “the significance of... [marine engine]
emissions in coastal areas and port cities, warrants interpreting ‘new
nonroad engine’ under section 213 to include marine engines on foreign
vessels….”

The Draft Notice (a) requested comments on the merits of regulating
foreign-flagged vessel engine emissions, and (b) stated that EPA might
decline to regulate foreign-flagged vessel emissions “because of the
potential implications that setting engine emission standards for foreign
vessels might have on international commerce and future international
negotiations....” After interagency and OMB review, EPA deleted the
rationale for regulating foreign-flagged vessel engine emissions.
However, EPA requested comments on the merits of regulating foreign-
flagged vessel engine emissions in the notice the Agency subsequently
issued. EPA received comments both supporting and opposing regulation
of foreign-flagged vessel engine emissions. Ultimately, according to
OTAQ, the Agency deferred addressing the issue to a future rulemaking.
In its 2003 rule, EPA said that by April 2007 it would consider regulating
emissions from foreign-flagged vessels as new engines under section 213
of the CAA. However, EPA did not adopt more stringent standards for
emissions from large oceangoing vessel engines by this date but instead
extended the deadline for addressing such emissions until December 2009.

Agency Efforts Have Only Recently Resulted in an
International Agreement Which Could Achieve Substantial
Emission Reductions
EPA, through a U.S. delegation, has worked through the IMO to gain
international consensus to establish more stringent emission standards for
oceangoing vessel engines. Due in part to EPA’s efforts, and the U.S.
proposal, the IMO revised Annex VI standards in 2008. Over the 14 year
period (1994 to 2008) since EPA first proposed to regulate emissions from
oceangoing vessel engines, EPA only issued emission standards for NOx
from Category 3 U.S.-flagged oceangoing vessel engines, and these
standards only matched the existing international NOx standards
(Appendix E provides a timeline of EPA’s efforts to regulate oceangoing
vessel engines since 1990). The revised Annex VI standards have the
potential to result in substantial emission reductions.


                              17
                                                                                             09-P-0125



                 In 1994, EPA proposed more stringent NOx emission standards for
                 Category 3 marine engines than those contained in Annex VI. The
                 Agency also proposed to regulate emissions of CO, HC, and PM. Annex
                 VI did not establish emissions standards for any of these other pollutants.
                 However, several commenters requested that EPA “harmonize” its
                 proposed emission standards for U.S marine diesel engines with the
                 IMO’s emissions standards. Due in part to these comments, EPA delayed
                 its development of further emission standards for Category 3 marine
                 engines until 2003.

                 EPA stated in its 2003 rule that its standards would not result in any
                 emission reductions beyond the Annex VI standards.21 The Agency
                 deferred promulgating more stringent emission standards for Category 3
                 engines on both U.S. and foreign-flagged vessels to April 2007. In its
                 2003 rule, EPA stated that:
                     We [EPA] believe that deferring this decision may help facilitate
                     the adoption of more stringent consensus international standards…
                     Adoption of appropriate international consensus standards has the
                     clear potential to maximize the level of emission reductions from
                     domestic and international vessels.22

Proposed Revisions to MARPOL Annex VI Adopted
                 In February 2007, the U.S. Government developed a proposal for the IMO
                 to revise MARPOL Annex VI emission standards. In April 2008, the IMO
                 Marine Environment Protection Committee reached agreement on revising
                 these standards, and this agreement has the potential to significantly
                 reduce emissions from U.S.- and foreign-flagged oceangoing vessel
                 engines. These standards were adopted by parties to MARPOL Annex VI
                 in October 2008.

                 The IMO agreement provides for revised NOx emission standards for both
                 new and existing engines. It also provides for limits on the percentage of
                 sulfur contained in marine engine fuel. This percentage varies depending
                 on whether a vessel is operating inside or outside of an IMO-designated
                 Emission Control Areas (ECAs). A lower sulfur percentage would be
                 required inside ECAs than would be required outside ECAs. For example,
                 proposed reductions include reducing:
                          •   NOx by 80 percent beginning in 2016 from new vessels in
                              designated ECAs; and


21
   International standards for Category 3 marine engines were adopted in September 1997. These standards
were not enforceable until a sufficient number of member countries ratified the treaty in May 2005.
22
   Control of Emissions From New Marine Compression-Ignition Engines at or Above 30 Liters Per
Cylinder; Final Rule; Federal Register/Vol. 68, No. 40/Friday, February 28, 2003, page 9759.


                                                    18
                                                                                               09-P-0125


                           •   SOx by 93 percent beginning in 2015 for all vessels operating
                               in designated ECAs.

                 Comparing the IMO Agreement and the U.S. Proposal

                 Neither the IMO agreement nor the U.S. proposal contains standards for
                 CO, HC, or air toxics. According to OTAQ representatives, the Agency
                 does not have a timetable for regulating CO or HC emissions from
                 oceangoing vessel engines because the foreseeable benefits would not be
                 significant. The Agency expects to achieve air toxic emissions reductions
                 as a co-benefit of reducing PM and SOx emissions.

                 The IMO agreement differs from the U.S. proposal in a number of ways
                 including the following five ways:
                       •   It requires NOx percentage reductions that are either within the
                           lowest range or slightly below the level recommended in the U.S.
                           proposal23 for emissions from engines on vessels constructed after
                           January 1, 2011.
                       •   In regard to engines on existing vessels, both contain the same
                           recommended standard for NOx. However, the agreement would
                           apply a NOx standard to engines on vessels constructed 5 years
                           later than the date in the U.S. proposal (1990 instead of 1985).
                       •   In regard to sulfur emissions, while both contain the same
                           standard for sulfur content in fuel, the agreement provides for
                           achieving a sulfur level goal (0.1 percent of fuel composition in
                           Emissions Control Areas) 4 years after the date in the U.S.
                           proposal (2015 instead of 2011).
                       •   The agreement does not establish an emissions limit for SOx but
                           does allow alternative means to meet the fuel standard for the
                           limits on the percentage of sulfur contained in fuel. In contrast,
                           the U.S. proposed a performance-based approach for reducing
                           sulfur emissions. Under this approach, in addition to proposed
                           sulfur limits, the U.S. proposal contained a specific SOx standard
                           (0.4 g/kW-hr) which might be met by different compliance
                           methods, such as exhaust gas cleaning technology.
                       •   The agreement also does not contain specific PM standards. In
                           contrast, the U.S. proposed PM standards (from 0.2 to 0.5 g/kW-
                           hr) that would vary according to engine characteristics. The U.S.
                           proposal provided that these PM standards could be met by
                           seawater SOx scrubbers or low sulfur fuel.



23
  The U.S. proposed a Tier 2 NOx limit ranging from 15 percent to 25 percent below the current limit and a
Tier 3 NOx limit 80 percent below the Tier 2 NOx limit. The agreement calls for a Tier 2 NOx limit 15.3 -
21.4 percent (depending on engine speed) below the current limit and a Tier 3 NOx limit 74.0 - 76.4 percent
(depending on engine speed) below the Tier 2 NOx limit (80 percent below tier 1) for emissions from
marine diesel engines above 130 kilowatts (kW) installed on vessels constructed after January 1, 2011.


                                                     19
                                                                           09-P-0125


          Appendix F provides a summary of the revised Annex VI standards
          adopted in October 2008.

          Importance of IMO Emission Control Areas
          According to the IMO agreement, the most stringent SOx and NOx
          standards will only apply in ECAs. Where an ECA is not established,
          oceangoing vessels can use fuel with a sulfur content up to 35,000 ppm
          until 2020, and up to 5,000 ppm thereafter. By comparison, in areas
          where an ECA is established, oceangoing vessels will be required to use
          fuel with a sulfur content of 10,000 ppm by 2010 and 1,000 ppm by 2015.

          The IMO agreement will not reduce NOx emissions more than 15.3
          percent below the current Annex VI standards where an ECA has not been
          established. In contrast, where an ECA has been established, oceangoing
          vessels must reduce NOx emissions by 80 percent from the current Annex
          VI standards. Therefore, ECAs must be established if significant SOx and
          NOx emission reductions are to be realized.

          Next Steps in the IMO Process

          The IMO adopted new international standards for NOx emissions from
          oceangoing vessel engines and the sulfur content of fuels used by such
          vessels in October 2008. In addition, in October 2008, the U.S. ratified
          Annex VI. According to OTAQ, EPA is now preparing an ECA
          application that implements the proposed geographic-based standards
          along U.S. coasts. The application must be submitted to and approved by
          the IMO prior to becoming effective. EPA will need to work with its
          Federal partners to prepare an ECA application for U.S. coastal areas.
          Among other things, the application will describe the adverse health and
          environmental impacts caused by oceangoing vessel emissions to U.S.
          populations, terrestrial and aquatic ecosystems, critical habitats, water
          quality, and areas of cultural and scientific significance. The most
          immediate emissions reductions possible for the U.S. from the IMO
          agreement would be from establishing an ECA. Therefore, the U.S.
          expeditiously submitting an application for an ECA is important.

EPA’s Delay in Controlling Oceangoing Vessel Engine
Emissions May Have Long-Term Effects
          Delays in establishing additional emissions regulations for oceangoing
          vessels may result in uncontrolled emission levels for some pollutants and
          a growing fleet of unregulated diesel engines. These emissions contribute
          to pollution levels in many nonattainment areas in the United States. New
          unregulated engines have the potential to contribute pollution to these
          areas for several decades. In its 2007 proposal, the United States informed
          the IMO that emissions from oceangoing vessels prevent many areas in
          the United States from attaining ambient air quality levels that protect


                                        20
                                                                                           09-P-0125


                  human health and the environment. As shown in Table 2-1, emissions
                  from large commercial marine engines account for substantial percentages
                  of mobile source inventories in many port areas.
                  Table 2-1: Contribution of Commercial Marine Vesselsa to Mobile Source
                             Inventories for Selected Ports in 2002

                                                         NOx             PM 2.5
                             Port Area                  Percent         Percent         SOx Percent
                Baltimore, MD                             12              27                69
                Beaumont, TX                               6              20                55
                Boston, MA                                 4               5                30
                Charleston, SC                            22              33                87
                Galveston, TX                              5              12                47
                Houston, TX                                3              10                41
                Jacksonville, FL                           5              11                52
                Los Angeles/Long Beach, CA                 5              10                71
                Miami, FL                                 13              25                66
                New Orleans, LA                           14              24                59
                New York/New Jersey, NY/NJ                 4               9                39
                Oakland, CA                                8              14                80
                Port Everglades, FL                        9              20                56
                San Francisco, CA                          1               1                31
                Savannah, GA                              24              39                80
                Seattle, WA                               10              20                56
                South Louisiana, LA                       12              24                58
                Tacoma, WA                                20              38                74
                Valdez, AK                                 4              10                43
                Wilmington, NC                             7              16                73
            a
             This category includes emissions from Category 3 propulsion engines, as well as Category 2
            and 3 auxiliary engines used on oceangoing vessels.
                Source: EPA Advanced Notice of Proposed Rulemaking, Control of Emissions From New
                          Marine Compression-Ignition Engines at or Above 30 Liters per Cylinder.
                          Federal Register: December 7, 2007, Volume 72, Number 235, pp. 69522-69552.
                          Table VIII-4, p. 69547.

                  At least one nonattainment area may not meet the 8-hour ozone standard
                  by the deadline established by EPA because of emissions from large
                  oceangoing vessel engines. A representative from California’s SCAQMD
                  told us that EPA standards for oceangoing vessels would not reduce
                  emissions enough for the Los Angeles area to achieve air quality standards
                  for ozone and particulate matter. In 2006, the California Air Resources
                  Board (CARB) adopted emission limits for auxiliary diesel engines that
                  were more stringent than EPA’s current standards for these engines.
                  However, the Pacific Merchant Shipping Association challenged
                  California’s authority to enforce these standards, and the Court found that
                  CARB lacked authorization to enforce such standards.24



24
  Pacific Merchant Shipping Association v. James Goldstene, No. 07-16695 (9th Cir. Feb. 27, 2008).
The Federal District Court found that CARB needs EPA authorization under Clean Air Act, Section 209(e)
to enforce such standards; upheld on appeal.


                                                   21
                                                                          09-P-0125


         According to EPA, the average age of an oceangoing vessel in the global
         fleet is 25 years. Delays in establishing additional emissions regulations
         for oceangoing vessels result in uncontrolled emission levels for some
         pollutants and a growing fleet of unregulated diesel engines. These
         emissions contribute to pollution levels in many nonattainment areas in the
         U.S. New unregulated engines have the potential to contribute pollution
         to these areas for several decades into the future.

Conclusions
         Recent EPA and international actions have the potential to significantly
         reduce harmful air emissions from oceangoing vessel engines if an ECA is
         established for the U.S. The international agreement addresses harmful
         emissions from oceangoing vessels differently, and in some instances less
         stringently, than the U.S. delegation’s February 2007 proposal to the IMO.
         In the event that additional actions to address oceangoing vessel emissions
         are warranted in the future, EPA should determine its authorities to
         regulate air emissions from foreign-flagged vessels in U.S. ports, and
         report any limitations to Congress. The Agency also needs to show how
         the IMO provisions meet the Agency’s responsibilities under the Clean
         Air Act.

Recommendations
         We recommend that the Assistant Administrator for Air and Radiation:

         2-1    Assess EPA's authorities and responsibilities under the CAA to
                regulate air emissions from foreign-flagged vessel engines in U.S.
                ports, in light of the new IMO Treaty, and report any shortfalls in
                such authorities to Congress. EPA should include in its analysis
                key air pollutants emitted by Category 3 marine engines not
                covered by the IMO Treaty and show how the Agency will meet its
                responsibilities under the CAA.

         2-2    Assess the extent to which Emission Control Areas (ECAs) should
                be designated for all U.S. coastal areas, under the revised Annex
                VI provisions. For all areas where ECAs are needed, ensure that
                the appropriate application materials and supporting
                documentation are submitted to the IMO in a timely manner.

Agency Comments and OIG Evaluation

         The Agency said that it concurred, with comment, with Recommendation
         2-1. However, EPA did not agree to assess its authorities and
         responsibilities under the CAA to regulate air emissions from foreign-
         flagged vessel engines in U.S. ports and report that assessment to the
         Congress. EPA’s comments were not responsive and do not satisfy the


                                       22
                                                               09-P-0125


intent of the recommendation. Due to the length of time it has taken EPA
to get more stringent standards for oceangoing vessel engines by working
with the IMO, we believe that EPA should conduct such an assessment
and report any shortfalls in its authorities to Congress. We consider
Recommendation 2-1 to be open and unresolved.

The Agency concurred with Recommendation 2-2, with comment. EPA
stated that it is working with other U.S. Government agencies and the
Government of Canada to develop a comprehensive application to
establish ECAs along all U.S. and Canadian coasts. We view this effort as
being essential to any significant reduction of emissions from oceangoing
vessels in or approaching U.S. ports. The actions the Agency outlined in
its response to Recommendation 2-2 satisfy the intent of our
recommendation.

The Agency also provided several technical clarifications and comments
on Chapter 2. We made changes to the final report based on these
comments, as appropriate. The Agency’s complete written response is in
Appendix I. Our evaluation of the Agency’s response is in Appendix J.




                             23
                                                                         09-P-0125




                           Chapter 3
  Implementing EPA’s Approach to Reducing Air
    Emissions at U.S. Ports Needs Improving
         EPA has not successfully implemented all the key elements of its
         approach to address air emissions at U.S. ports. EPA’s approach generally
         falls under the scope of the National Clean Diesel Campaign (NCDC), and
         consists of (1) developing standards and regulations, (2) using voluntary
         initiatives to promote emission reductions from existing diesel engines,
         and (3) supporting the establishment of revised international emission
         standards for oceangoing vessel engines (as discussed in Chapter 2).
         However, regulations to significantly reduce emissions from oceangoing
         vessel engines have not been established by the Agency, and were only
         recently adopted by the IMO. Additionally, despite the emphasis that
         EPA has placed on voluntary partnership programs, such as those within
         the NCDC and regional diesel collaboratives, voluntary initiatives had not
         been implemented through these programs at many U.S. ports.

         During our evaluation, EPA built upon its NCDC efforts by developing
         and publishing a Strategy for Sustainable Ports (Strategy). This Strategy
         is an Agency-wide, multi-media effort which includes goals and objectives
         for addressing key environmental issues at U.S. ports, as well as some
         timeframes for action. However, EPA’s Strategy lacks an adequate
         transformation plan for achieving the Strategy’s goals. For example, the
         Strategy does not include appropriate performance measures, milestones,
         and other management controls for many of the action items in it. As a
         result, EPA’s Strategy lacks the management framework and controls
         necessary to assure that it will be successfully executed.

EPA’s Approach Is Incomplete
         EPA’s approach to reducing emissions from U.S. ports includes
         developing emission standards and regulations for the five major
         categories of port sources. EPA has issued regulations to significantly
         reduce emissions from heavy-duty diesel trucks, cargo-handling
         equipment, harbor craft, and locomotives. If properly implemented and
         enforced, EPA projects that these regulations will achieve significant
         emission reductions from each of these four categories of port sources
         over the years. EPA projects that these regulations will achieve the
         following emissions reductions:

                Heavy-Duty Diesel Trucks – 2.6 million tons of NOx and 109,000
                tons of PM emissions annually by 2030.



                                      24
                                                                                               09-P-0125


                          Cargo-Handling Equipment – over 129,000 tons of PM2.5 and
                          738,000 tons of NOx emissions annually by 2030.25

                          Harbor Craft and Locomotives – 27,000 tons of PM2.5 and 800,000
                          tons of NOx emissions annually by 2030 (for both harbor craft and
                          locomotives combined).

                 However, implementation of EPA’s approach is incomplete because it has
                 not yet been successful in promulgating regulations to significantly reduce
                 emissions from oceangoing vessels. As discussed in Chapter 2,
                 oceangoing vessel engine emissions are a significant and growing source
                 of emissions. For example, in 2007, large oceangoing vessel engines
                 emitted more than half of the mobile source SOx inventory for the entire
                 U.S. (almost 530,000 tons). The Agency’s lack of success in establishing
                 more stringent emission standards for Category 3 marine diesel engines
                 has been a significant limitation to the implementation of EPA’s approach
                 to controlling air emissions at U.S. ports. The revised Annex VI
                 standards, adopted by the IMO in October 2008, should help advance
                 EPA’s approach to reducing air emissions at U.S. ports.

Limited Data to Verify Results of Voluntary Actions
                 Another component of EPA’s approach involves voluntary initiatives to
                 reduce emissions from the existing legacy fleet of diesel engines. These
                 voluntary initiatives are important because of the long useful life of many
                 diesel engines, and because EPA regulations generally apply only to
                 newly built engines.26 Implementation of EPA’s Strategy for Sustainable
                 Ports27 relies heavily on a voluntary partnership with key stakeholders in
                 the port sector. The success of many action items in the strategy hinges on
                 the voluntary participation of port authorities, private marine terminal
                 operators, and other entities within the marine transportation system.
                 However, we found EPA has little data to demonstrate the results of the
                 voluntary activities to control air emissions at U.S. ports.

                 Each port is unique in its operations and the impacts that it has on the air
                 quality in surrounding communities. As such, EPA needs reliable
                 information on emissions sources at each individual port to understand the
                 challenges each port faces in reducing its emissions. We asked OTAQ
                 personnel to list all significant port-related air quality projects for which

25
   The projected emission reductions represent all nonroad diesel engines subject to EPA’s 2004 Nonroad
Diesel Rule. Cargo handling equipment operating at ports are subject to these standards, but emission
reductions from these sources represent only a portion of the overall projected emission reductions.
26
   Beginning in 2008, EPA required that marine diesel engines above 600 kW and locomotives built in or
after 1973 meet more stringent emission limits when they are remanufactured, if a certified remanufacture
system is available (73 FR 25098). The MARPOL Annex VI amendments also contain a similar program
for existing marine engines that will begin to apply as soon as kits are certified.
27
   EPA’s Strategy for Sustainable Ports, issued in February 2008, is discussed later in Chapter 3 and in
Appendix H.


                                                     25
                                                                                               09-P-0125


                 EPA Headquarters provided complete or partial funding from fiscal years
                 (FY) 2002 through FY 2007. OTAQ identified 24 projects EPA had
                 supported at ports throughout the country. However, OTAQ only
                 provided results for 5 of the 24 emission reduction projects listed. OTAQ
                 did not provide results for 19 of the projects listed. These projects were
                 either listed as “ongoing,” or had not yet started. According to OTAQ, 13
                 of the 24 projects were funded in FY 2004, FY 2005, or FY 2006 but were
                 still listed as ongoing projects with no results. Because OTAQ did not
                 provide results for the majority of the projects it listed, the success or
                 failure of those projects could not be assessed.

                 The Agency has not obtained consistent and reliable emissions data on
                 voluntary initiatives that would allow for evaluation. However, according
                 to OTAQ, EPA encourages local government and port authorities to
                 quantify air emissions. The Agency has several tools to estimate
                 emissions reductions by modeling, including the MOBILE and
                 NONROAD emission inventory models, the Diesel Emissions Quantifier,
                 and the FLEET model. While EPA can use these tools to estimate
                 emission reductions, the tools rely on EPA verified technologies. They
                 also rely on activity data provided by the project (e.g., hours of operation,
                 age, and other properties of the affected vehicles). According to OTAQ,
                 improvements to the Diesel Emissions Quantifier and FLEET models are
                 underway to expand the scope of the fleets it evaluates.

                 According to OTAQ, it completed an additional modeling tool, called
                 DrayFLEET, after our draft report was issued. This model was developed
                 to assist terminal operators and drayage28 companies in evaluating
                 emissions reduction efforts. OTAQ also said that the SmartWay Transport
                 Partnership is working with its stakeholders to develop an emissions
                 database. According to OTAQ, this database will interface with existing
                 logistics models currently used by major shippers to make shipping
                 choices that minimize the environmental impacts of goods movement on a
                 systemwide basis.

                 EPA has contributed funding and technical assistance for developing
                 emission inventories for some U.S. ports.29 Nevertheless, according to the
                 Director of OTAQ, a consistent baseline emissions inventory has not been
                 established for many U.S. ports. In its Strategy for Sustainable Ports, EPA
                 committed to work with the 75 largest ports in the U.S. to develop
                 baseline emission inventories. If this initiative is successful it may aid
                 EPA in evaluating the effectiveness of future emission reduction activities.
28
   The term “dray” means any vehicle, such as a truck, used to haul goods, especially one used to carry
heavy loads.
29
   According to OTAQ, EPA has funded efforts to establish emissions inventories for ports in the Pacific
Northwest, and a project for the Port of Los Angeles and the Port of Shanghai to work together on
emissions inventory issues. OTAQ said EPA has also reviewed, commented, or provided technical
assistance on numerous port emissions inventories (e.g., Baltimore, Houston, Los Angeles, Long Beach,
MASSPORT (Boston), New York/New Jersey, Seattle, Tacoma, and Vancouver (Washington).


                                                     26
                                                                                    09-P-0125



Voluntary Initiatives Have Not Been Implemented at Many
U.S. Ports
                   EPA utilizes several voluntary partnership programs that impact ports. A
                   voluntary “partnership” program, according to EPA’s 2006 definition:30

                       • is designed to proactively target and motivate external parties to
                         take specific environmental action steps;
                       • does not compel by law external parties to take environmental
                         action steps; and
                       • [is one where] EPA is responsible for providing leadership and
                         decision-making authority [for the partnership].

                   According to OTAQ, EPA provides multiple ways for ports to participate
                   in its programs. Port stakeholders can work on diesel emissions
                   reductions programs on their own (i.e., by using EPA verified
                   technologies), through their State air agencies, with EPA Headquarters, or
                   via EPA regional collaboratives. Regional diesel collaboratives, Clean
                   Ports USA, and EPA’s technology verification program are all key
                   partnership programs in EPA’s NCDC. In addition, EPA’s SmartWay
                   Transport program includes freight owners and carriers, many of whom
                   operate in and around ports. However, EPA’s voluntary initiatives to
                   reduce air emissions from port sources have not been implemented at
                   many U.S. ports

                   Opportunities Exist to Improve Participation in Regional
                   Diesel Collaboratives

                   Regional diesel collaboratives are a significant component of the
                   Agency’s overall effort to reduce diesel emissions. Six of eight EPA
                   regions we surveyed identified their respective regional diesel
                   collaboratives as key elements of their strategies to address emissions
                   from port sources. Nonetheless, we found that many sea ports located in
                   nonattainment areas for either ozone or particulate matter were not
                   participating in regional diesel collaboratives. Of 31 U.S. sea ports
                   located in nonattainment areas for ozone or PM2.5, 14 were not
                   participating in regional diesel collaboratives. Five of the 14 ports not
                   participating in diesel collaboratives were located in nonattainment areas
                   for both ozone and PM2.5. Appendix G provides details on participation in
                   regional diesel collaboratives by ports located in nonattainment areas.

                   OTAQ and the EPA regions we surveyed cited multiple reasons for lack of
                   port participation in regional diesel collaboratives. These included:



30
     EPA, OPEI Definition of EPA Partnership Programs, December 2006.


                                                   27
                                                                                           09-P-0125


                     •   many small ports do not have the resources to attend meetings of
                         the collaboratives (which focus on many sectors, such as school
                         buses, transit buses, agriculture, etc);
                     •   some port authorities are not convinced of a need to participate in
                         collaborative efforts;
                     •   smaller ports may not see a need to participate in a collaborative
                         because they do not experience the magnitude of air quality issues
                         associated with large ports;
                     •   some State environmental agencies do not participate in port
                         workgroups organized by regional collaboratives;
                     •   some port authorities do not have staff devoted to managing
                         environmental issues; and
                     •   ports have not been a focus of diesel collaborative efforts in one
                         EPA region.

                 Because regional diesel collaboratives are a key component of EPA’s
                 voluntary partnership program, and a tool for reducing emissions from
                 port sources, the Agency needs to proactively target and motivate port
                 stakeholders to participate in these collaborative efforts, particularly for
                 those ports located in nonattainment areas.

                 EPA Verified Technologies Are Major Component of Voluntary
                 Emission Reduction Efforts, But Funding is Limited

                 One of the key resources that EPA has in promoting voluntary emission
                 reductions is its ability to independently verify engine retrofit
                 technologies. Through EPA’s technology verification efforts, the Agency
                 certifies that certain retrofit technologies will achieve the emission
                 reductions claimed by the manufacturer. EPA uses data from projects
                 employing verified technologies to estimate emission reductions for clean
                 diesel activities.

                 According to EPA’s Diesel Retrofit Technology Verification Website,
                 EPA and CARB have verified 22 nonroad engine retrofit technologies.31
                 However, OTAQ said that more nonroad retrofit technologies could be
                 developed. According to OTAQ staff, manufacturers have only just begun
                 to project an adequate market volume for certain nonroad retrofit
                 technologies. Continued Agency work in this area may help to broaden
                 the menu of EPA-verified technologies available to source owners and
                 operators. For example, no verified retrofit devices exist for three of the
                 seven retrofit technologies identified by the Clean Ports USA Website.32
                 Ports are hesitant to adopt new technologies that are not verified because

31
   CARB also verified nonroad engine technologies that were recognized by EPA under a reciprocity
agreement. For nonroad engines, EPA has verified 4 engine retrofit technologies, and CARB has verified
18. All 22 technologies are officially recognized by EPA.
32
   At the time we surveyed OTAQ in 2007, EPA had not verified any Lean NOx Catalyst Closed Crankcase
Ventilation or Exhaust Gas Recirculation retrofit technologies for nonroad engines.


                                                   28
                                                                                               09-P-0125


                 they cannot risk interrupting their business operations, according to a 2006
                 report by the Clean Air Act Advisory Committee.33 Further EPA work
                 with manufacturers may result in a broader list of verified nonroad retrofit
                 devices that could be applied to voluntary emission reduction activities at
                 ports.

                 Despite the fact that EPA acknowledges the importance of verified
                 technologies in obtaining voluntary emission reductions, funding for
                 EPA’s Environmental Technology Verification (ETV) program was
                 discontinued in FY 2007. The ETV program provided a complementary,
                 independent role for OTAQ’s technology verification program.34
                 According to OTAQ representatives,35 discontinuing funding for the ETV
                 program may impact EPA’s technical coordination with industry
                 stakeholders, and result in delays in getting products verified.

Limited Resources for Implementing EPA’s Efforts to Reduce
Port Emissions
                 In responding to our 2007 survey, OTAQ and EPA regions said that
                 obtaining more funding for voluntary and incentive programs was one of
                 the most important options available to EPA for reducing diesel emissions
                 from port sources. EPA’s regulations generally only apply to newly built
                 engines. The existing fleet of diesel engines may last up to several
                 decades before being replaced by new engines subject to EPA regulations.
                 Thus, EPA’s initiatives also need to address the existing fleet.

                 Port emission reduction activities can be costly to implement. For
                 example, the Ports of Los Angeles and Long Beach developed a
                 comprehensive plan (the San Pedro Bay Clean Air Action Plan) to address
                 air emissions at their ports. The estimated cost to implement the San
                 Pedro Bay Clean Air Action Plan exceeds $2 billion over a 5-year period
                 (2006-2011).36 A bond initiative for California’s Goods Movement Plan
                 is expected to fund over half of the San Pedro Bay Clean Air Action
                 Plan’s total cost. The Port Authorities of Los Angeles and Long Beach, as


33
   Recommendations for Reducing Emissions From the Legacy Diesel Fleet. Report from the Clean Air
Act Advisory Committee, April 10, 2006.
34
   OTAQ and EPA’s Office of Research and Development work in partnership to verify engine retrofit
technologies and certify emission reductions. OTAQ works with manufacturers to assure that the engines
are appropriately tested in the ETV process. OTAQ is responsible for interpreting the ETV testing results
and assigning the appropriate level of emission reductions for the engine technologies.
35
   The key OTAQ representatives were a manager in the Innovative Strategy Group, a team leader for the
Diesel Retrofit Technology Verification Team, and an engineer for the Compliance and Innovative
Strategies Division.
36
   The San Pedro Bay Clean Air Action Plan describes measures that the Ports of Los Angeles and Long
Beach will take toward reducing emissions related to port operations. The major stakeholders involved in
the plan’s development were the Ports of Los Angeles and Long Beach, California’s South Coast Air
Quality Management District, the California Air Resources Board, and U.S. EPA Region 9.


                                                     29
                                                                                                 09-P-0125


                  well as the SCAQMD, have budgeted over $400 million to implement the
                  plan.

                  EPA has attempted to leverage Federal funding with partnerships formed
                  through efforts such as regional diesel collaboratives. Only recently has
                  EPA begun to allocate funding for port emission reduction activities. In
                  FY 2003, EPA Region 9 was the only Region that committed funding to
                  port emission reduction activities. OTAQ did not allocate any funds for
                  Federal grants for port emission reduction activities in FY 2002 or FY
                  2003. According to OTAQ, EPA had its first port-related demonstration
                  grants under the Clean Air Act in FY 2004 ($368,000). Our survey results
                  show that over the 6-year period from FY 2002 to FY 2007, EPA
                  headquarters and regions collectively contributed less than $5.3 million for
                  air quality projects that impacted the ports in our sample.37

                  Some EPA regions with major U.S. ports did not allocate funds for port
                  emission reduction activities until FY 2006 or later. For example, EPA
                  Region 4, with over 35 key ports, did not commit any funding to address
                  port air quality issues until FY 2006. Region 4 cited the fact that the
                  majority of ports in its Region were in attainment of EPA’s National
                  Ambient Air Quality Standards as the primary reason for not allocating
                  funds to address these sources. Although ports may be located in
                  attainment areas, emissions from port sources can still have a significant
                  impact on local communities. For example, EPA’s 2003 marine rule cited
                  local air quality impacts from ports in Wilmington, NC, and Miami, FL
                  (both located in EPA Region 4) as examples of why EPA action was
                  necessary to control marine engine emissions.

                  In FY 2008, Congress appropriated approximately $50 million to help
                  reduce emissions from diesel engines.38 While not all of this funding is
                  allocated for the port sector, port stakeholders are eligible to receive some
                  of this grant funding, according to OTAQ. Port authorities, State and local
                  governments, and other eligible entities can apply for competitive Federal
                  grants under this program to deploy verified and certified technologies for
                  reducing diesel emissions. Additionally, funding from the Congestion
                  Mitigation and Air Quality (CMAQ) Improvement Program can be used
                  for projects that reduce pollution from port sources, such as on-highway
                  trucks and construction equipment.39

37
   For 18 major ports, we asked OTAQ and 8 EPA regions to identify all port-related air quality projects
that they contributed partial or complete funding to from FY 2002 to FY 2007 (Appendix C lists the 18
ports). EPA headquarters contributed about $2.7 million to 24 such projects from FY 2002 to FY 2007,
and EPA regions funded 21 projects over the same time with approximately $2.5 million. Because OTAQ
and EPA regions responded individually to our survey, some of the projects identified and the funds
claimed may have been duplicated.
38
   Under authority of the Energy Policy Act of 2005.
39
   According to the U.S. Department of Transportation, Federal Highway Administration, Congress adopted
the Intermodal Surface Transportation Efficiency Act in 1991. This law authorized the CMAQ program,
and provided $6.0 billion in funding for surface transportation and other related projects that contribute to


                                                      30
                                                                                         09-P-0125



EPA’s New Strategy for Sustainable Ports Lacks a
Transformation Plan
                In February 2008, EPA released its Strategy for Sustainable Ports.
                According to OTAQ, the Strategy is multi-media oriented, and cuts across
                the various EPA offices to leverage Agency resources and opportunities to
                work with ports towards sustainability. OTAQ stated that the Strategy is
                intended to bring together the various programs that deal with ports across
                the Agency. It was developed with the participation of EPA Regional and
                Assistant Administrators through Regional Leadership Forums to address
                the environmental implications of port operations and growth. Two
                forums have been held: the first was held in September 2006 at the Ports
                of Los Angeles/Long Beach; the second in September 2007 at the Port of
                New York/New Jersey.

                EPA’s Strategy has six themes, one of which directly relates to air quality
                issues at U.S. ports. The Agency has committed to several action items
                and goals as part of this Strategy. While this Strategy is a step in the right
                direction, it does not contain all the components necessary to assure its
                success. Specifically, EPA’s Strategy does not contain a transformation
                plan which would link strategies to goals through programs, milestones,
                and metrics. EPA provided us with a draft, working document that
                generally identified lead and participating offices and regions for the
                action items in its Strategy; however, the Strategy does not clearly link
                action items to desired outcomes.

                The stated mission of EPA’s Strategy for Sustainable Ports is to:
                         …collaborate with marine port authorities, their business partners
                         and port communities to promote sustainability and to minimize
                         the negative effects of inter-modal marine and land-side goods
                         movement on human health and the environment.

                However, parts of the Strategy related to reducing air emissions in ports
                do not have milestone dates for achieving many of the specific action
                items listed. For example, four of five action items listed under the
                “Goods Movement Actions” section (Clean Air and Affordable Energy
                theme) of the Strategy do not provide milestone dates as to when those
                actions are expected to be completed. Further, some action items in the
                Strategy contain vague language as to how the Agency will complete the
                item or how success will be measured. For example, 7 of 16 action items
                listed under the “Clean Air and Affordable Energy” theme of the Strategy



air quality improvements and reduce congestion. However, prior to passage of the Safe, Accountable,
Flexible, Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-LU) in 2005, CMAQ funds
were not eligible for offroad diesel retrofit projects.


                                                  31
                                                                           09-P-0125


         use vague directives, such as “utilize,” “work with,” “collaborate,” and
         “actively work with.” Examples include:
                •   “1.B. Utilize existing EPA programs, such as the National
                    Clean Diesel Campaign, Regional Diesel Retrofit
                    Collaboratives, and Smartway Transport to promote emission
                    reductions in the supply chain.”
                •   “1.E. Work with ports to encourage their business partners to
                    establish meaningful (LEED-like) agreements with SmartWay
                    Transport Partners (e.g., freight owners) to reduce the impacts
                    of shipping goods by using cleaner fuels and more efficient
                    routes, operations & technologies.”
                •   “1.P. Participate actively in the DOT/MARAD National
                    Congestion Initiative, the Committee on Marine System
                    Transportation, and other relevant efforts.”
         None of the action items listed above present information that indicates
         how EPA plans to execute the action, or how and when performance will
         be measured. Appendix H provides details on EPA’s Strategy for
         Sustainable Ports that relate to air quality issues.

         Our detailed review of three EPA regions’ efforts at the Ports of New
         York/New Jersey, Houston, Long Beach, and Los Angeles demonstrated
         that some EPA regions have assisted some ports on an individual basis in
         implementing clean diesel initiatives. For example, EPA Regions 2 and 6
         worked through their respective regional diesel collaboratives to help
         facilitate clean diesel activities at the Ports of New York/New Jersey and
         Houston. Similarly, EPA Region 9 staff assisted in developing a
         comprehensive strategic plan to address air emissions at the Ports of Los
         Angeles and Long Beach.

         EPA’s Strategy for Sustainable Ports lacks appropriate performance
         measures, milestones, and other management controls that would enable
         the Agency to transform its strategic goals into measurable results. It also
         contains vague language as to how some action items are to be completed.
         These deficiencies raise concerns as to whether the Strategy can be
         successfully executed. OTAQ representatives noted that an Agency-wide
         team is updating the Strategy.

Conclusions

         The Agency’s implementation of voluntary initiatives to reduce emissions
         from port sources has been hampered by a lack of emissions data,
         participation, and funding. EPA regulations requiring further air emission
         reductions from oceangoing vessel engines have not been promulgated.
         Nevertheless, EPA has made some progress towards improving air quality
         in port areas through its initiatives. EPA has developed a Strategy for
         Sustainable Ports in an effort to leverage Agency resources and


                                       32
                                                                             09-P-0125


         opportunities across various EPA offices to work proactively with ports
         towards sustainability. The multi-media strategy establishes goals and a
         general direction for EPA’s ports initiatives.

         However, EPA’s strategy does not include the management controls
         necessary to execute, oversee, and measure the success of its approach to
         addressing air quality issues at ports. Despite recognizing the significance
         of air quality issues from port sources, EPA’s strategy only provides
         general guidance for coordinating efforts to reduce emissions from U.S.
         port sources. The Agency has not developed a transformation plan to link
         its desired strategic results with the actions that EPA regions and
         stakeholders need to take. EPA’s strategy should include designations of
         accountability and responsibility with appropriate milestones, performance
         measures, and other management controls. Currently, EPA’s strategy
         lacks the management framework and controls, as well as an assessment
         of the resources, necessary to successfully implement it.

Recommendation
         We recommend that the Assistant Administrator for Air and Radiation:

         3-1 Revise the Strategy for Sustainable Ports to include a transformation
             plan with appropriate designations of authorities and responsibilities,
             milestones, performance measures, other management controls, and
             an assessment of resources, to assure the Agency’s port-related
             efforts under the NCDC are successfully implemented.

Agency Comments and OIG Evaluation

         The Agency generally agreed with the importance of establishing
         milestones, performance measures, and other reporting requirements to
         ensure successful implementation of EPA’s port-related efforts. EPA also
         agreed that a general lack of funding has hampered implementation of
         voluntary initiatives at ports. However, EPA disagreed with our finding
         that voluntary initiatives had not been effectively implemented at many
         U.S. ports, and stated that participation in regional diesel collaboratives is
         not sufficient to judge whether a port is engaged with EPA to voluntarily
         reduce air pollution. EPA also said that the Strategy for Sustainable Ports
         was not an appropriate vehicle for closely monitoring progress toward
         reducing air emissions at ports. EPA further stated that it already had
         management processes in place that are adequate for the broader purposes
         for which the Strategy for Sustainable Ports was developed.

         We disagree with the Agency. We continue to believe that voluntary
         initiatives have not been effectively implemented at many U.S. ports.
         EPA identified regional diesel collaboratives as key elements of its
         NCDC. These collaboratives are significant parts of EPA’s effort to


                                        33
                                                                  09-P-0125


reduce emissions from port sources through voluntary initiatives, thus we
focused on port participation in these programs. Although the Agency has
provided multiple ways for ports to participate in voluntary emission
reduction programs, EPA has yet to address air emissions from ports with
a focused, comprehensive management plan that specifically targets air
quality improvements in port areas.

EPA’s Strategy for Sustainable Ports was the strategic plan for reducing
pollution at U.S. ports that EPA provided to the OIG and which the
Agency has provided to the public. The Strategy for Sustainable Ports
remains a public document on EPA’s Website with its stated purpose
being to “… support existing and new EPA programs and projects that
will produce measurable results within the next 18 months….” The
Agency’s NCDC does not have a specific strategy to direct the Agency’s
port-related efforts. If EPA intends for its efforts to reduce air emissions
from U.S. ports to remain outside of the Strategy for Sustainable Ports,
then an appropriate framework for overseeing these activities should be in
place. We concluded that such a framework is not in place. Given the
health and environmental impacts of air emissions in port areas, and the
projected growth in these emissions, we believe that EPA needs to develop
a plan to address the major sources of air emissions at ports that EPA
plans to reduce. The plan should include appropriate designation of
authorities and responsibilities, milestones, performance measures, other
management controls, and an assessment of resources to transform the
Agency’s port-related efforts under the NCDC into successful
implementation. We consider this recommendation open and unresolved.

The Agency’s complete written response is in Appendix I. Our evaluation
of those comments is in Appendix J.




                              34
                                                                                                                                 09-P-0125


                           Status of Recommendations and
                             Potential Monetary Benefits

                                                                                                                                 POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed To
    No.      No.                          Subject                           Status1        Action Official             Date      Amount      Amount

    2-1      22     Assess EPA's authorities and responsibilities under       U       Assistant Administrator for
                    the CAA to regulate air emissions from foreign-                       Air and Radiation
                    flagged vessel engines in U.S. ports, in light of the
                    new IMO Treaty, and report any shortfalls to
                    Congress. EPA should include in its analysis key
                    air pollutants emitted by Category 3 marine
                    engines not covered by the IMO Treaty and show
                    how the Agency will meet its responsibilities under
                    the CAA.

    2-2       22    Assess the extent to which Emission Control Areas         O       Assistant Administrator for
                    (ECAs) should be designated for all U.S. coastal                      Air and Radiation
                    areas, under the revised Annex VI provisions. For
                    all areas where ECAs are needed, ensure that the
                    appropriate application materials and supporting
                    documentation are submitted to the IMO in a timely
                    manner.

    3-1       33    Revise the Strategy for Sustainable Ports to              U       Assistant Administrator for
                    include a transformation plan with appropriate                        Air and Radiation
                    designations of authorities and responsibilities,
                    milestones, performance measures, other
                    management controls, and an assessment of
                    resources, to assure the Agency’s port-related
                    efforts under the NCDC are successfully
                    implemented.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                              35
                                                                                                09-P-0125


                                                                                           Appendix A

               Projected Growth of U.S. Ports Due to
                        Container Shipping
Since 1995 container growth worldwide has increased by at least 10 percent every year
and this growth is expected to continue. A Bureau of Transportation Statistics report
shows that one in every nine maritime containers in the world is either bound for or
coming from the United States. The United States expects to have total container traffic
(imports and exports) of greater than 60 million containers in 2010 and 110 million in
2020. See Figure A-1.

     Figure A-1: Historic and Projected Increases in U. S. Container Traffic (TEUs)40




     Source: PowerPoint presentation by John Horsley, Executive Director, American Association of State
     Highway and Transportation Officials (AASHTO), February 13, 2007.

Contributing to this growth is the use of very large container ships (post-Panamax)41 and
the use of these large ships is occurring globally. Through the economies of scale
achieved by deploying these ships on major trade routes between Asia, Europe, and
North America, many more containers are moving through ports worldwide. The
proposed widening of the Panama Canal (projected completion in 2014) would bring

40
   Twenty-Foot Equivalent Unit (TEU) is a unit of measurement equal to the space occupied by a standard
20-foot container. It is used in stating the capacity of container vessel or storage area.
41
   Post-Panamax and Over-Panamax are the terms used to describe ships larger than Panamax that do not
fit in the current Panama Canal. The current canal can handle vessels of 5,000 TEU, after expansion, the
Panama Canal is expected to be able to handle vessels up to 12,000 TEU.


                                                       36
                                                                                               09-P-0125


more post-Panamax ships to ports along the Gulf of Mexico and the East Coast of the
United States.

In order to receive the growth in container traffic, by 2020 every major U.S. container
port is expected to double the volume of cargo it must process with East Coast ports
tripling in volume and some West Coast ports quadrupling in volume. Table A-2 shows
the projected increases of specific ports by 2020, starting from 2004. This shows the
anticipated impact of the Panama Canal expansion on port growth.

Table A-2: Growth of Container Traffic in Selected U.S. Ports
          Port                  2004 volume                2020 Volume                  Increase
                                (1000 TEUs)                 (1000 TEU)                  (Percent)
        Seattle                      1,776                     2,557                          44
        Tacoma                       1,798                     4,396                       144.5
        Oakland                      2,043                     3,382                        65.5
Los Angeles/Long Beach              13,101                    59,420                       353.6
        Houston                      1,437                     6,165                         329
         Miami                       1,010                     2,152                       113.1
       Savannah                      1,662                     9,420                       466.8
      Charleston                     1,860                     6,639                       256.9
        Virginia                     1,809                     5,566                       207.7
 New York/New Jersey                 4,478                    15,835                       253.6
Source: American Society of Civil Engineers – 2005 Report Card for America’s Infrastructure, U.S.
Department of Transportation.

Table A-3 on the next page shows examples of actual and planned port expansion
projects for selected ports contained in our survey (see Appendix C).




                                                     37
                                                                                                     09-P-0125

Table A-3: Examples of Actual and Planned Expansion Projects in Selected U.S.
Ports
          Port                                  Examples of Increasing Port Capacity
         Seattle             • Plans building a capacity by 2013 of 4 million TEUs, including planned
                               transfer of 32 acres from cruise operation into an expanded 70-acre
                               container handling facility ($125 million).
        Tacoma             •   Plans to build a $300 million, 168-acre container terminal.
                           •   investing in its near-terminal rail facility, including a $10.5 million capital
                               project.
                           •   Developing a logistics center south of Olympia, Washington.
        Oakland            •   Half of the former Oakland Army Base was conveyed to the port (2003 and
                               2006).
                           •   Negotiations with the two class I carriers-BNSF and Union Pacific, to
                               establish an expanded intermodal rail facility (September 2007).
                           •   Current 5-year plan allocates $341 million in capital investment for the port.
                           •   Priority at Oakland is deepening both its channel and berth areas.
      Long Beach           •   Port of Long Beach sees no capacity issues surfacing in the next 2-5 years.
                           •   ''Green Port'' covenants with two of its seven major cargo terminals. The
                               more recent-carried in a long-term lease agreement with International
                               Transportation Service, Inc. (a subsidiary of NYK Line) targets a 90-percent
                               reduction in air pollution.
        Houston            •   Bayport Container Terminal at Houston will be expanded over the next 15-
                               20 years as market conditions dictate. Eventual container traffic capacity at
                               the site will be 2.3 million TEUs, which will triple container traffic at the site.
                           •   Bayport facility follows the 2005 completion of a 5-year effort to deepen the
                               port's main channel from 40-45 feet, while widening that channel from 400-
                               530 feet.
          Miami            •   Federal water bill includes authorization for the Miami Harbor Project: an
                               Army Corps of Engineers deepening of the 6,200-foot wharf to 50 feet.
                           •   Nearly $1 billion 1.1 mile underground Miami Tunnel Project, which would
                               give truckers ''seamless access from the Interstate'' (currently, the port's
                               considerable truck traffic is routed through surface streets).
                           •   New $90 million cruise ship facility, multi-level garage, new office space,
                               and bulk head improvements.
       Savannah            •   Savannah Harbor Expansion Project will deepen the harbor to 48 feet
                               (before the Panama Canal improvements are completed).
                           •   Georgia Port Authority wants to raise the port's potential capacity to 6.5
                               million TEUs by 2018.
       Charleston          •   The port expansion includes a $600 million terminal at the former Navy
                               base.
                           •   $300 million highway to take terminal traffic to I-26.
         Virginia          •   Renovation of Norfolk International Terminal-South (by 2010) will add eight
(Norfolk, Newport News,        new Suez class cranes to operation and completely re-figure the back
 Portsmouth, Hampton           lands. At NIT-North, 1,900 linear feet of new berth is being added, with
                               new cranes.
 Roads, and the Virginia
                           •   Increase TEU capacity from 2.1 million to 3 million.
  Inland Port in Front     •   Heartland Corridor, slated for completion late in 2009 (a major inland port
          Royal)               project).
       New York/           •   $1.7 billion investment package to pay for reconfiguring existing terminals,
      New Jersey               deepening    harbors and berths, and improving inland rail access.
                           •   The Port Authority acquired a 153-acre parcel in nearby Bayonne, New
                               Jersey ($50.5 million, September 2007).
Source: America's Ports Take on the Challenge of Trade Growth, World Trade Magazine, February 2008.




                                                         38
                                                                                 09-P-0125


                                                                            Appendix B

     Key EPA Regulations for Five Major Sources
                of Port Emissions
Oceangoing Vessels
The EPA has undertaken a parallel regulatory effort for oceangoing vessels, setting
emissions standards for U.S.-flagged vessels under the Clean Air Act (CAA) while
seeking international standards for foreign-flagged vessels under the International
Maritime Organization (IMO).

In February 2003, EPA adopted Tier 1 NOx emission standards for Category 3 new
marine diesel engines that would be installed on vessels flagged or registered in the
United States. This regulation did not apply to foreign-flagged vessels which were held
to an equivalent set of international standards under the International Maritime
Organization. These standards went into effect in 2004 and were based on readily
available emission-control technology. EPA committed to issue a second tier of more
stringent standards for Category 3 marine engines by April 2007. At the same time, EPA
continued to work as part of the U.S. delegation to the IMO to seek more stringent
international standards for oceangoing vessels.

EPA has since delayed its Tier 2 standards for Category 3 marine engines, citing a need
for additional time to evaluate new data becoming available on control technologies for
this category of engines. EPA issued a rule on April 27, 2007, that extends the deadline
to issue Tier 2 rules for Category 3 marine engines to December 17, 2009. Further, on
December 7, 2007, EPA issued an Advance Notice of Proposed Rulemaking to invite
comment from all interested parties on its plan to propose new emission standards and
other related provisions for new Category 3 engines. EPA is considering standards for
achieving large reductions in NOx and PM with technologies such as in-cylinder controls,
after-treatment, and low sulfur fuel, starting as early as 2011.

Heavy-Duty Diesel Trucks

In 2001, EPA issued a rule that established new PM and NOx emission standards for
heavy-duty highway engines and vehicles. The new standards were required to be phased
in beginning in 2007, and relied on a low-sulfur fuel requirement (sulfur content of fuel
was not to exceed 15 ppm) that was required to be in place for all terminal and retail fuel
stations by September 2006. Because of this rulemaking, EPA projected a reduction of
2.6 million tons of NOx emissions and an annual emission reduction of 109,000 tons of
PM by 2030.

Cargo-Handling Equipment

In June 2004, as part of the Clean Air Nonroad Diesel Rule, EPA adopted new emission
standards for nonroad diesel engines and sulfur reductions in nonroad diesel fuel to
reduce harmful emissions and to help States and local areas designated as 8-hour ozone


                                             39
                                                                                09-P-0125


nonattainment areas to improve their air quality. Diesel engines used on cargo-handling
equipment at U.S. ports were generally subject to these standards. EPA concluded that
the standards would achieve reductions in PM and NOx emission levels in excess of 95
percent and 90 percent, respectively. It also concluded that the standards would reduce
the sulfur level in nonroad diesel fuel by 99 percent. These fuel improvements began to
take effect in 2007.

Harbor Craft and Locomotives

EPA’s standards for small marine diesel engines were adopted in 1998 for engines under
37 kilowatts (kW), in 1999 for commercial marine engines, and in 2002 for recreational
marine engines. EPA’s standards provided for various Tier 1 and Tier 2 standards phased
in from 1999 through 2009, depending on engine size and application.

In 1999, EPA issued a rule controlling emissions from new marine compression-ignition
engines for Category 1 and 2 marine diesel engines (i.e., engines generally used on
harbor craft such as tugboats and fishing vessels). The rule did not set mandatory
emissions standards for marine compression-ignition engines before 2004. Rather, the
rule urged manufacturers to voluntarily comply with international standards until the
proposed Tier 2 standards for Category 1 and Category 2 marine diesel engines were
scheduled to come into effect.

EPA’s standards for newly-built and remanufactured locomotives were adopted in 1998
and were implemented in three tiers (Tiers 0, 1, and 2) between 2000 and 2005. EPA’s
current program includes Tier 0 emission limits for existing locomotives originally
manufactured in 1973 or later, that apply when they are remanufactured. The most
stringent of these existing locomotive and marine diesel engine standards are similar in
stringency to EPA’s nonroad Tier 2 standards that are now being replaced by Tier 3 and 4
standards.

On May 6, 2008, EPA finalized regulations for more stringent emission standards for
Category 1 and Category 2 diesel marine engines, as well as diesel locomotives. These
categories include harborcraft vessels found at ports as well as ferries, fishing vessels,
Great Lakes freighters, and recreational boats. According to EPA, the regulations will,
by 2030, reduce annual PM2.5 emissions by about 27,000 tons, and annual NOx emissions
by 800,000 tons.

The finalized rule is a three-part program to address both new and existing diesel engine
emissions from these sources.

First, stringent emission standards for existing locomotives and for existing commercial
marine diesel engines above 600 kilowatt (kW) (800 horsepower) were adopted. These
standards apply when the engines are remanufactured. This part of the program will take
effect as soon as certified remanufacture systems are available, for some engines as early
as late 2008. Under the existing program, locomotives have been certified to one of three
tiers of standards: Tier 0 for locomotives originally built between 1973 and 2001, Tier 1
for those built between 2002 and 2004, and Tier 2 for those built in or after 2005. Under
the new program, certified locomotive remanufacture systems must be made available by

                                             40
                                                                                 09-P-0125


2010 for Tier 0 and Tier 1 locomotives, and by 2013 for Tier 2 locomotives.
Remanufactured systems certified for use in marine engine remanufactures are likewise
required to be used.

Second, a set of near-term emission standards, referred to as Tier 3, for newly-built
locomotives and marine engines, was adopted. The Tier 3 standards reflect applying
technologies to reduce engine-out particulate matter (PM) and NOx. Longer-term
standards, referred to as Tier 4, for newly-built locomotives and marine engines, will also
occur. Tier 4 standards reflect applying high-efficiency catalytic aftertreatment
technology enabled by the availability of ultra-low sulfur diesel fuel. These standards
take effect in 2015 for locomotives, and phase in over time for marine engines, beginning
in 2014.

Finally, provisions to eliminate emissions from unnecessary locomotive idling were also
adopted for each of the above described program phases.

According to EPA, locomotives and marine diesel engines designed to these Tier 4
standards will achieve PM reductions of 90 percent and NOx reductions of 80 percent,
compared to engines meeting the current Tier 2 standards. The new standards will also
yield sizeable reductions in emissions of nonmethane hydrocarbons, carbon monoxide
(CO), and hazardous compounds known as air toxics.




                                             41
                                                                                  09-P-0125



                                                                             Appendix C

              Details on Scope and Methodology
Our evaluation focused on EPA’s Office of Air and Radiation, Office of Transportation
and Air Quality (OTAQ), located in Washington, DC, and Ann Arbor, MI. We reviewed
documentation and interviewed EPA Regions 2 (New York), 6 (Dallas), and 9 (San
Francisco); and administered a survey to OTAQ and EPA Regions 1, 2, 3, 4, 5, 6, 9, and
10 as part of our evaluation. The staff we contacted at these EPA offices all dealt with air
quality issues at U.S. ports to varying extents. We met with EPA’s Office of General
Counsel, located in Washington, DC. We also interviewed representatives from the
following non-Federal stakeholder groups: A.P. Moller-Maersk, the California Air
Resources Board, the Los Angeles/Long Beach Port Community Advisory Committee,
the Port of Long Beach, the Port of Los Angeles, and the SCAQMD.

To determine whether Agency actions to address air emissions from oceangoing vessels
at selected U.S. ports have been effective, we reviewed EPA’s actions related to
oceangoing vessels dating back to EPA’s 1994 determination that human health is being
significantly harmed by emissions from large oceangoing vessels in U.S. ports. We
reviewed EPA’s 1994 final nonroad rule, the Agency’s Advanced Notices of Proposed
Rulemakings, Proposed, and Final Rulemakings for 1999, 2002, 2003, and 2007, as
appropriate. We reviewed selected documents in EPA’s docket for these rulemakings, as
appropriate. We also reviewed the February 2008 testimony of the former Associate
Director of OTAQ before the Senate Committee on Environment and Public Works. We
also interviewed OTAQ officials and reviewed the U.S. proposal to the IMO.

To determine whether EPA's management plan to address emissions from port sources
was sufficient to protect human health and the environment at selected major U.S. ports,
we reviewed documentation and studies related to air quality issues at selected U.S. ports
including:
   •   EPA’s Vision, Mission, and Strategy for Sustainable Ports dated February 12,
       2008
   •   Final 2006 San Pedro Bay Clean Air Action Plan, November 2006.
   •   U.S. Department of Transportation, Maritime Administration report, Vessel Calls
       at U.S. & World Ports 2005.
   •   Summary Judgment in United States Court of Appeals Case No. 03-1120-
       Bluewater Network v. Environmental Protection Agency (EPA) and Michael O.
       Leavitt, Administrator, United States Environmental Protection Agency.
   •   EPA’s 2006-2011 Strategic Plan.
   •   U.S. proposal to the IMO, MARPOL Annex VI, and the NOx, Technical Code:
       Development of Standards for NOx, PM, and SOx. Submitted to the IMO
       Subcommittee on Bulk Liquids and Gases, February 9, 2007.
   •   Emission inventory and emission reduction efforts documentation for the Ports of
       Houston, Los Angeles, Long Beach, and New York/New Jersey.




                                              42
                                                                                  09-P-0125


   •   Various EPA regulations for controlling emissions from nonroad sources,
       particularly those regulations relating to heavy-duty trucks, cargo-handling
       equipment, locomotives, and marine diesel engines.
   •   Studies and stakeholder comments in the EPA docket for selected regulations.
   •   Journal of Environmental Science & Technology, 2007, 41, 8512-8518, Article
       entitled Mortality from Ship Emissions: A Global Assessment, James J. Corbett,
       James J. Winebrake, Erin H. Green, Prasad Kasibhatla, Veronika Eyring, and
       Axel Lauer.
As part of the evaluation, we conducted Web reviews and analyzed documentation from
OTAQ, the American Association of Port Authorities, the International Maritime
Organization, the U.S. Army Corps of Engineers, and the U.S. Department of
Transportation, among others. We also reviewed information related to the Panama
Canal Expansion.
In addition to document reviews, we selected four U.S. ports for more in-depth analysis.
Based upon size, volume of shipping traffic, and proximity to population centers, we
chose the ports of Houston, Long Beach, Los Angeles, and New York/New Jersey. Our
analysis of issues and activities at these ports included reviews of emissions inventories
for each port, studies of potential health impacts from port pollution, and air emission
reduction efforts. We interviewed EPA region personnel familiar with port operations
and Agency activities at each port. We toured the port facilities in Los Angeles and Long
Beach, and met with staff at EPA Region 9, the California Air Resources Board,
SCAQMD, A.P. Moller-Maersk, and the Port Authorities for both the Port of Long Beach
and the Port of Los Angeles.
We obtained data independently, as part of a survey, to assess the extent of air pollution
problems and EPA actions at selected ports across the U.S. We surveyed OTAQ and
eight EPA regions that had coastal or Great Lakes ports located within their jurisdiction.
As part of our survey, we asked EPA regions to provide information about their efforts to
reduce air emissions at 18 specific ports. The 18 ports we identified in the survey were:
the Port of Boston, Port of Providence, Port of New York and New Jersey, Port of
Camden, Port of Baltimore, Port of Philadelphia, Port of Savannah, Port of Charleston,
Port of Chicago, Port of Detroit, Port of Houston, Port of Greater Baton Rouge, Port of
Los Angeles and Port of Long Beach (grouped together for the purposes of the OIG
survey), Port of Oakland, Port of Seattle and Port of Tacoma (grouped together for the
purposes of the OIG survey), and the Port of Portland, OR. The survey was also
administered to OTAQ, with general questions about EPA activities to reduce air
emissions. We field tested our survey with both OTAQ and EPA Region 9.

We selected two significant ports from each EPA region above in order to identify the
issues and challenges being faced by a variety of ports throughout the U.S. We selected
regions with either coastal or Great Lakes ports for our survey (EPA regions 1, 2, 3, 4, 5,
6, 9, and 10). We obtained responses to our survey from OTAQ and the eight EPA
regions in 2007. Follow-up was conducted as necessary via phone interviews with
appropriate staff from each survey respondent. The following table shows the criteria
used to select the 18 ports:



                                              43
                                                                                           09-P-0125

Table B.1: Criteria for Port Selection

           Criteria                        Source Title                           Data Source
                                Final Waterborne Commerce
Annual tonnage passing                                               U.S. Army Corps of Engineers,
                                Summary Tables for Calendar
through the port                                                     February 2007
                                2005.
Population of the area          Data from U.S. Census
                                                                     http://www.census.gov/
surrounding the port            Bureau’s 2000 Census
Attainment status of the        EPA Green Book data as of
                                                                     http://www.epa.gov/air/oaqps/greenbk/
port area                       April 9, 2007
Number of vessel calls
                                Vessel Calls At U.S. & World         U.S. Department of Transportation
(10,000 deadweight tons or
                                Ports 2005                           Maritime Administration, April 2006.
greater)
Container traffic through       North American Port Container        American Association of Port
the port (TEUs)                 Traffic 2006                         Authorities
Source: Developed by OIG staff based on information from sources cited

Review of Management (Internal) Controls

Generally accepted government auditing standards require that auditors obtain an
understanding of internal controls significant to the audit objectives and consider whether
specific internal control procedures have been properly designed and placed in operation.
We examined management and internal controls as they related to our objectives. We
reviewed the laws that impact air emissions from port sources, and EPA’s authority to
regulate marine engines on foreign-flagged vessels with assistance from the OIG Office
of Counsel. We focused on the responsibilities and authorities that EPA has to protect
human health from unsafe ambient air quality, including the extent to which EPA has
statutory authority to develop a regulatory-based program to control emissions from port
sources. We reviewed the policies and procedures and performance measures that EPA
had established to carry out voluntary emission reduction initiatives at ports. We
reviewed results of an Office of Management and Budget Program Assessment Rating
Tool for the Mobile Source Standards and Certification Program. We also reviewed
analytical, documentary, and testimonial evidence from OTAQ and EPA regions 1, 2, 3,
4, 5, 6, 9, and 10. Sections 2 and 3 identify findings and recommendations where EPA
can improve the implementation of its strategy to reduce emissions from mobile sources
operating at U.S. ports.

Prior Reports

The OIG conducted one prior evaluation that related to air emissions at ports. This report,
Progress Report on EPA’s Nonroad Mobile Source Emissions Reduction Strategies,
Report No. 2006-P-00039, dated September 27, 2006, noted that EPA was addressing the
overall diesel emissions program’s progress based on total emissions reductions.

The OIG also conducted a prior evaluation related to voluntary programs. This report,
Voluntary Programs Could Benefit from Internal Policy Controls and a Systematic
Management Approach, Report No. 2007-P-00041, dated September 25, 2007, identified
issues related to this evaluation. The report noted that EPA does not have uniform
implementation policies that allow staff to determine whether voluntary programs are
achieving their overall goals. The report also noted that EPA has not implemented a


                                                    44
                                                                                09-P-0125


systematic process to develop, test, and market voluntary programs, or to regularly
evaluate the impact of these programs on the environment.

Prior GAO Reports

   •   Air Pollution. EPA Could Take Additional Steps to Help Maximize the Benefits
       from the 2007 Diesel Emissions Standards, GAO-04-313, March 2004.
   •   Environmental Justice. EPA Should Devote More Attention to Environmental
       Justice When Developing Clean Air Rules, GAO-05-289, July 2005.




                                             45
                                                                                  09-P-0125




                                                                              Appendix D

      Details on EPA’s Rationale for Not Taking a
         Position on Whether It Has Authority
         to Regulate Foreign-Flagged Vessels
EPA’s Office of General Counsel and OTAQ provided the following rationale for
delaying its decision to regulate foreign flagged vessels:

•   In its 1999 rulemaking to regulate emissions from new diesel marine engines, EPA
    interpreted “new” marine engines and vessels to include imported marine engines and
    vessels, and relied on the Harmonized Tariff Schedule of the United States (HTSUS)
    for determining when a marine engine and vessel is imported. “According to the
    HTSUS, vessels used in international trade or commerce or vessels brought into the
    territory of the United States by nonresidents for their own use in pleasure cruising
    are admitted without formal customs consumption entry or payment of duty. … This
    means that engines installed on vessels flagged in another country that come into the
    United States temporarily will not be subject to the emission standards, because they
    are not imported and are therefore not new engines under the Clean Air Act Section
    216(3) and 213(d).” 64 Fed. Reg. at 73302 (December 29, 1999).

•   As part of the follow-up rulemaking process to regulate emissions from ocean-going
    vessels, the largest of the diesel marine engines, EPA considered the merits of
    amending the regulatory definition of a “new” marine engine to find that marine
    engine emission standards apply to Category 1, 2, and 3 marine diesel engines that are
    built after the standards become effective and that are installed on foreign flag vessels
    that enter U.S. ports. EPA included in a draft proposed rule to OMB arguments
    supporting such amended definition, stating that it “has discretion in interpreting
    section 213 as it applies to new marine engines and vessels, and is considering which
    interpretation is most appropriate from a policy perspective.”

•   As part of the interagency review process, EPA revised the proposed rule to solicit
    comment “on whether it would be appropriate and within EPA’s authority to exercise
    this discretion to define ‘new nonroad engine’ to include marine engines on foreign
    vessels that enter US ports, in light of environmental and international oceans policy
    and any other relevant factors, including consideration of their significant emissions
    contribution to air quality problems in the United States.” 67 Fed. Reg. at 37565/3.

•   In the final rule, EPA did not revise the definition of “new” marine engine to include
    marine diesel engines installed on foreign flag vessels. EPA explained that it need
    “not decide whether we have the discretion to interpret ‘new’ nonroad engine or
    vessel …” to include foreign vessels at that time because “no significant emission
    reductions would be achieved by treating foreign vessels as ‘new’ for purposes of the



                                              46
                                                                                    09-P-0125


    near-term standards in this final rule and there is no significant loss in emission
    reductions by not including them.” 68 Fed. Reg. at 9759/2.

•   EPA’s decision to defer whether it had authority to revise the definition of “new”
    marine engine to include engines installed on foreign flag vessels was challenged as
    arbitrary and capricious in the D.C. Circuit Court. That Court denied Petitioner’s
    challenge on this issue; the Court held that Petitioner’s challenge was premature
    given EPA had adopted standards of similar stringency as those that already applied
    to foreign flag vessels and thus there would be no significant loss of emission
    reductions by the deferral. Bluewater Network v. EPA, 372 F.3d 404, 413 (D.C. Cir.
    2004).

•   Thus, although EPA has identified arguments for revising the definition of “new” to
    include foreign flag vessels, it has not taken a position on whether such an
    interpretation would be reasonable in light of the language and purpose of section 213
    of the CAA. EPA’s decision not to take a position on the issue was upheld by the
    D.C. Circuit Court.




                                               47
                                                                                                                                                 09-P-0125



                                                                                                                                         Appendix E


     Timeline of Selected EPA Regulatory Actions
    Since 1990 to Address Air Emissions from Port
                       Sources

                                                                                2004 Agency issues emission standards for
                                                                                nonroad mobile sources, including fuel standards
1990 Amendments to Clean Air Act directs EPA to                                 for nonroad diesel. The fuel standards did not
promulgate regulations for emissions from new nonroad                           apply to fuel used by Category 3 marine engines
engines and vehicles that significantly contribute to air
pollution that endangers public health or welfare                                                          2007 EPA issues Federal Register Notice delaying
                                                                                                           Tier 2 standards for Category 3 marine diesel
                                                 1999 EPA promulgates Tier 1 standards for
                                                                                                           engines until December 2009
                                                 Category 1 and Category 2 marine engines.
                                                 No standards for Category 3 engines were                                            2009 New EPA deadline for issuing Tier 2
                                                 contained in this rule                                                              standards for Category 3 marine engines (Dec.
                                                                                                                                     2009).




       1990                              1995                            2000                             2005                            2010                             2015
                                                                                                                  2008 EPA issues Tier 3 and Tier 4 standards for Category 1 and 2
                          1994 EPA issues Federal Register Notice                                                 marine engines, as well as more stringent standards for
                          stating that nonroad engines contribute                                                 locomotives.
                          significantly to ozone and CO concentrations
                          in more than one nonattainment area.
                                                                          2003 EPA issues final rule setting Tier 1
                                                                          standards for Category 3 marine engines, and Tier
                                                                          2 standards for Category 1 and 2 marine engines.
                                                                          All standards applied only to vessels registered in
                                                                          the U.S.


Source: Timeline constructed by OIG staff based on proposed and final EPA actions published in the
Federal Register.




                                                                                 48
                                                                                              09-P-0125



                                                                                         Appendix F

   Summary of Revised MARPOL Annex VI
Standards Adopted by the IMO in October 2008

                      Summary of Proposed Revisions to Annex VI Standards
  Effective Date       Pollutant(s)      Engines Subject to Standard              Standard
 Upon ratification     NOx (Tier I)   All engines on vessels registered to Current Annex VI
 of revised Annex                     treaty members constructed           requirements (up to
 VI standards                         between 1990 and 2011.*              17.0 g/kW-hr)
 January 1, 2011       NOx (Tier II)  Diesel engines installed on any      Up to 14.4 g/kW-hr
                                      ship, registered to treaty members
                                      or operating in ports of treaty
                                      members, that is constructed on or
                                      after January 1, 2011
 January 1, 2016       NOx (Tier III) Diesel engines installed on any ship Up to 3.4 g/kW-hr
                                      that is constructed on or after
                                      January 1, 2016 which is operating
                                      in an established emission control
                                      area.
 July 1, 2010          PM and SOx     All engines on vessels operating     Use of fuel with 10,000
                                      within emission control areas        ppm sulfur content
                                      approved by the IMO
 January 1, 2012       PM and SOx     All oceangoing vessel engines on     Use of fuel with 35,000
                                      vessels registered to treaty         ppm sulfur content
                                      members, or operating in ports of
                                      treaty members
 January 1, 2015       PM and SOx     All engines on vessels operating     Use of fuel with 1,000
                                      within emission control areas        ppm sulfur content
                                      approved by the IMO
 January 1,            PM and SOx     All oceangoing vessel engines on     Use of fuel with 5,000
 2020**                               vessels registered to treaty         ppm sulfur content
                                      members, or operating in ports of
                                      treaty members
              *Engines built after January 1, 2000 were already subject to Tier 1 standards. The
              revised Annex VI standards will also apply Tier 1 standards to engines that were built
              between 1990 and 2000. Exceptions to this standard would be allowed if the required
              emission reduction was impractical.
              **The IMO may, after review, delay the effective date of this standard to 2025 if there is
              evidence that application of the standard is impractical at that time.
              Source: Associate Director, EPA OTAQ




                                                  49
                                                                                                       09-P-0125



                                                                                                 Appendix G

        Status of Participation in Regional Diesel
     Collaboratives for Ports in Nonattainment Areas
                                                                 Pollutant Exceeding         Participant in Regional
                      Port                      State
                                                                        NAAQS                Diesel Collaborative?
                     Albany                 New York                   8 hr ozone                       Yes
                   Baltimore                Maryland              8 hr ozone, PM 2.5                    Yes
             Greater Baton Rouge            Louisiana                  8 hr ozone                       No
                               42
                  Beaumont                    Texas                    8 hr ozone                       No
                     Boston              Massachusetts                 8 hr ozone                       Yes
                   Bridgeport              Connecticut            8 hr ozone, PM 2.5                    Yes
                    Camden                 New Jersey             8 hr ozone, PM 2.5                    Yes
                    Chicago                   Illinois            8 hr ozone, PM 2.5                    No
                   Cleveland                   Ohio               8 hr ozone, PM 2.5                    No
                     Detroit                Michigan              8 hr ozone, PM 2.5                    No
                    Freeport                  Texas                    8 hr ozone                       No
                   Galveston                  Texas                    8 hr ozone                       No
                    Houston                   Texas                    8 hr ozone                       Yes
                   Hueneme                  California                 8 hr ozone                       No
            Indiana (Burns Harbor)           Indiana              8 hr ozone, PM 2.5                    No
                  Los Angeles               California            8 hr ozone, PM 2.5                    Yes
                  Long Beach                California            8 hr ozone, PM 2.5                    Yes
                   Milwaukee               Wisconsin                  8 hr ozone                        No
                 New Bedford             Massachusetts                 8 hr ozone                       Yes
           New York & New Jersey     New York/New Jersey          8 hr ozone, PM 2.5                    Yes
                    Oakland                 California                 8 hr ozone                       Yes
                             1
                    Orange                    Texas                    8 hr ozone                       No
                  Philadelphia            Pennsylvania            8 hr ozone, PM 2.5                   Yes
                                1
                  Port Arthur                 Texas                    8 hr ozone                       No
                  Portsmouth             New Hampshire                 8 hr ozone                       No
                  Providence              Rhode Island                 8 hr ozone                       Yes
                 Redwood City               California                 8 hr ozone                     Unsure
                   San Diego                California                 8 hr ozone                       Yes
                 San Francisco              California                 8 hr ozone                       Yes
                    Stockton                California                 8 hr ozone                       Yes
                  Wilmington                Delaware              8 hr ozone, PM 2.5                    No
           Total Ports in Nonattainment Status Not Participating in Regional Diesel               14 of 31 (45%)
           Collaboratives

      Source:   OIG-developed table based on information provided by EPA and the American Association of Port
                Authorities (AAPA). Attainment status for each port area determined by combining August 2007 data
                from AAPA and EPA’s Green Book Nonattainment Areas for Criteria Pollutants
                (http://www.epa.gov/air/oaqps/greenbk/). Information on port participation in regional diesel
                collaboratives obtained from EPA regional responses to our survey.




42
  According to EPA Region 6, the Beaumont-Port Arthur area, which includes the Ports of Beaumont, Port
Arthur, and Orange, has made strides toward attaining the 8-hr. ozone NAAQS. A maintenance plan for
these areas has been proposed to EPA.



                                                         50
                                                                                                           09-P-0125


                                                                                                     Appendix H

             Details of EPA’s Strategy for Sustainable Ports
Purpose   Using the framework of the Administrator’s Action Plan, support existing and new EPA programs and projects that will
          produce measurable results within the next 18 months and lay the groundwork for further actions in support of EPA 's
          Vision for Sustainable Ports, as well as related components of EPA’s 2006-2011 Strategic Plan.
Theme:    Goods Movement Actions
Clean
          1.A   Develop a transportation supply chain approach to reducing air pollution from freight movement that recognizes
Air &
                the critical role the ports play in goods movement and allows shippers to choose cleaner methods to move
Afford-
                goods.
able
Energy    1.B   Utilize existing EPA programs, such as the National Clean Diesel Campaign, Regional Diesel Retrofit
                Collaboratives & SmartWay Transport, to promote emission reductions in the supply chain.
          1.C   Develop a supply chain model to help shippers & carriers quantify the environmental footprint of goods
                movement & establish corporate improvement goals for emissions performance by December 2008.
          1.D  Develop a tiered set of emissions reductions goals for major ports responsible for a significant percentage of U.S.
               international trade, focusing on port operations/expansion, intermodal fleet modernization & key maritime
               sources.
          1.E Work with ports to encourage their business partners to establish meaningful (LEED-like) agreements with
               SmartWay Transport Partners (e.g., freight owners) to reduce the impacts of shipping goods by using cleaner
               fuels and more efficient routes, operations & technologies.
          Emissions Inventory Actions
          1.F   Work with the top 75 ports in the U.S. to develop port specific baseline emissions inventories and emissions
                reduction targets based on 1) EPA's national port inventory guidance (to be completed this winter 2007/2008) or
                2) air emissions inventories completed by the port authorities in accordance with EPA-approved methodologies.
          1.G   Where port authorities have complete port-specific emissions inventories, initial emission reduction targets should
                be developed by mid to late 2008.
          1.H   Where port authorities are relying on an EPA-generated inventory guidance, initial emission reduction targets will
                be developed by late 2008 to early 2009.
          1/I   Emission reduction targets should promote early retirement of vehicles/engines and encourage the purchase of
                new or upgraded vehicles/equipment and the early introduction of 2010-compliant trucks in the supply chain.
          1.J   All targets should include a reduction of emissions from Category 1 and Category 2 marine vessels and harbor
                craft of at least 20 percent NOx and PM2.5 by 2020.
          Innovative Funding & New Technologies Actions
          Note: the extent to which these targets can be met is dependent upon available funding.
          1.K   Innovative Financing Funds (e.g. state low-interest loan funds) will be set up in up to 25 states with EPA seed
                money to provide small owner-operators of equipment like drayage trucks, incentives or access to funds to
                facilitate vehicle/engine upgrade or replacement and meeting targets.
          1.L   Start at least 3 emerging technology demonstration projects each year between 2008-12, demonstrating new
                emissions reduction technologies of strategically high value on equipment used at ports or to carry freight to and
                from ports including maritime shipping, intermodal transport modes.
          1.M   EPA will collaborate with other key federal entities to facilitate the use and exportation of cleaner technology,
                such as the hydraulic hybrid, through partnerships with domestic and foreign ports and other key stakeholders.
          General Collaborations/Programs Actions
          1.N   Work within EPA, across federal agencies and with stakeholders to support ratification of MARPOL Annex VI and
                adoption of the U.S. proposal for stricter Annex VI standards by October 2008.
          1.O   Actively work with the Department of Transportation, other government entities and key stakeholders on broader
                transportation system planning and financing efforts that will reduce congestion in goods movement and enable
                ports to meet their emission reduction targets (e.g. expand the use of CMAQ funds).
          1.P   Participate actively in the DOT/MARAD National Congestion Initiative, the Committee on Marine System
                Transportation, and other relevant efforts.




                                                               51
                                                                                                                09-P-0125

Theme:
Clean &
                 [Note: EPA’s actions to achieve Clean and Safe Water are not included in this appendix as these
Safe
                 do not relate to port air pollution issues. EPA’s full Strategy is available at the website listed below.]
Water
Theme:     National Environmental Policy Act (NEPA) Actions
Healthy
           3.A   Promote the use of NEPA as a tool to evaluate and promote efforts to address impacts from transportation
Com-
                 infrastructure development plans.
munities
& Eco-     Trade Associations Actions
systems    3.B   Support development and implementation of the Sustainability Plan of the American Association of Port
                 Authorities (AAPA).
           3.C   Support issue analysis and development of tools and web-based resources, e.g. revised Port Environmental
                 Mgmt. Handbook.
           3.D   Support the development of industry environmental goals and performance measures.

           3.E   Continue to promote the development of Environmental Management Systems (EMS). (e.g. encourage ports to
                 participate in the third round of AAPA's EMS assistance project)
           Environmental Justice (EJ) Actions
           3.F    Work with communities surrounding ports to address environmental justice and public health concerns (e.g.
                  capacity building)
           3.G Consider the advice and recommendations of the National Environmental Justice Advisory Council to be
                  developed in the next 18 months.
           Portfields/Solid Waste Actions
           3.H   Track the progress of the Southern Louisiana Regional Portfields and the Port of New York/New Jersey Portfields
                 Initiatives, and facilitate engagement of appropriate federal, state, and local partners through EPA's "convening"
                 role.
           3.I   Encourage, facilitate, and support diesel emissions & greenhouse gas reductions technologies & practices at
                 Superfund cleanup and redevelopment sites through Cleanup- Clean Air Program.
           3.J   Identify venues and forums to share information regarding material reuse & recycling related to port operations &
                 redevelopment, & redevelopments surrounding ports.
           Security Actions
           3.K   OHS will assist with any of the activities that have homeland security implications.

           3.L  Encourage ports to minimize environmental impacts during the development of systems that address security
                management and other security requirements (e.g. gate efficiencies). Encourage ports to make green
                purchasing decisions in all of their security procurements.
           General Collaborations/Programs Actions
           3.M   Promote regional transportation planning & national congestion initiative.

           3.N   Work with ports to explore ways to incorporate Base Realignment and Closure (BRAC) activities into long-range
                 planning.
           3.O   Encourage the use of environmental commitments in port lease agreements and contracts.

Theme:     Emission Reductions Actions
The
           4.A   Continue efforts to better quantify emissions of air pollution from maritime shipping around the world and to assist
Global
                 major foreign ports in developing emission inventories.
Environ-
ment       4.B   Using voluntary measures and binding international agreements (e.g., MARPOL Annex VI), promote cuts in air
                 pollution from maritime shipping and land-side transportation networks, both domestically and internationally.
           4.C   Engage maritime shipping interests in mechanisms for reducing NOx, SOx, PM, and greenhouse gas emissions
                 globally.
           Invasive Species Actions
           4.D   Continue to raise awareness domestically and abroad of the problem of invasive species in freight transportation
                 (e.g., in pallets and packaging).
           4.E   Promote efforts to address this problem, including through learning networks for Customs, USDA APHIS, and
                 other inspections entities, and the development of a mechanism to respond rapidly to reports of infestations.




                                                                  52
                                                                                                               09-P-0125

           Non-Compliant Goods Actions
            4.F   Promote the use of all available authorities to stop the importation of illegal and harmful products at the border.

            4.G   Coordinate with OPPTS to participate in the inter-agency Working Group on Import Safety to address this
                  problem, including improvement of inter-agency coordination with customs, USDA, and other inspection entities.
            4.H   Work with major trading partner countries to identify and address environmental and human health problems with
                  non-compliant goods, e.g. through MOUs.
           General Collaborations/Programs Actions
            4.I   Expand collaborative efforts with key foreign ports and nations to better understand and address environmental
                  concerns associated with maritime shipping, port operations, and intermodal transportation at national, regional
                  and international scales.
            4.J   Establish an International Sustainable Ports and Carriers Partnership that would serve as a mechanism for
                  international collaboration on projects to address the range of environmental problems associated with shipping
                  and ports.
            4.K   Identify an appropriate clearinghouse, agency or organization (e.g., UNCSD, IAPH etc.), similar to other
                  successful international partnerships supported by OIA, to support the International Sustainable Ports and
                  Carriers Partnership and increase international awareness of and interest in the Partnership.
            4.L   Work with the Office of the United States Trade Representative and other economic agencies in the development
                  and negotiation of trade policies and agreements to help minimize adverse localized consequences associated
                  with growth in international trade.
           4.M    Work with the International Maritime Organization’s London Convention to complete international guidelines on
                  environmental action levels for assessment and management of dredged material for disposal into marine
                  waters.
            4.N   Support State Department in working with the Senate in ratification of the London Protocol to prevent pollution of
                  marine waters, which focuses upon ocean dumping of wastes.
            4.O   Continue to work with UNEP, IMO and other appropriate entities on the development and implementation of
                  marine pollution treaties that pertain to port and maritime shipping operations.
Theme:     Actions
Ports
            5.A  Regularly communicate to ports and port stakeholders the status of and accomplishments attributable to EPA
Com-
                 initiatives that have and present opportunities for positive environmental impacts on port operations, e.g. Clean
muni-
                 Ports USA, WasteWise, etc.
cation
           5.B Establish and sustain dialogues with communities adjacent to Ports through which accomplishments of EPA and
                 its partners can be shared and explained, and communities can share their concerns regarding environmental
                 impacts of Ports with EPA.
           5.C EPA Regions will host Port Summits with the leadership of their respective state environmental agencies and port
                 authorities where opportunities for and barriers to improved environmental performance of ports can be shared
                 and discussed.
           5.D EPA Regions will establish and utilize multi-media Green Teams comprised of regional staff experts, to
                 communicate through a highly coordinated approach, best environmental practices associated with the various
                 media to port operators and their business partners
           5.E Establish an Agency communications plan to publicly release EPA's Sustainable Ports Vision and Strategy within
                 a target timeframe of early 2008
Theme:     Actions
Enforce-
            6.A   Promote opportunities to integrate clean port projects with linkages to enforcement actions, e.g. through
ment
                  Supplemental Environmental Projects.
            6.B   Continue to use EPA tools to ensure enforcement of and compliance with all applicable laws.


         Source: Strategy taken from EPA Port Sector Strategies Website, http://www.epa.gov/sectors/ports/index.html
                 on March 12, 2008. See http://www.epa.gov/sectors/ports/epastrategy.xls for a direct link to EPA’s
                 Strategy for Sustainable Ports identified above.




                                                                  53
                                                                                   09-P-0125


                                                                                Appendix I

               Agency Response to Draft Report
MEMORANDUM

SUBJECT:       Draft Office of Inspector General (OIG) Evaluation Report, "EPA Needs
               to Improve Its Efforts to Reduce Air Emissions at U.S. Ports"

FROM:          Elizabeth Craig
               Acting Assistant Administrator

TO:            Bill Roderick
               Acting Inspector General

        I am writing to provide you the Office of Air and Radiation’s comments on the
draft Inspector General Evaluation Report, “EPA Needs to Improve Its Efforts to Reduce
Air Emissions at U.S. Ports Assignment No. 2007-00296, January 12, 2009.” Thank you
for the opportunity to comment. We appreciate your interest on our work to reduce air
emissions at U.S. ports.

        As a general matter, OIG’s findings are consistent with our experience with
regard to addressing emissions from large ocean going vessels. We were pleased to see
that this current draft has been updated to reflect the success we have had over the past
year in working with the International Maritime Organization (IMO) to adopt new
international standards for oceangoing vessels and engines. We are also pleased that it
recognizes the need to further enhance the benefits of these standards though the
establishment of Emissions Control Areas for the U.S.

        We believe that the report’s assessment of the efficacy of the Agency’s voluntary
programs to address air pollution at ports is currently incomplete and does not reflect
many of the activities of our National Clean Diesel Campaign (NCDC), our regional
offices and collaboratives, or the ports themselves. We realize that the research for this
report was done sometime ago. Today, most ports located in nonattainment areas, along
with their tenants and customers, are undertaking actions to address air pollution, whether
or not they are members of their regional diesel collaborative. Therefore, as written, we
believe that the report under-represents the activities of the port authorities, their tenants
and customers to voluntarily address air issues. We also believe that the intent and
purpose of Regional Administrators and Assistant Administrators in developing the
Agency Sustainable Ports Strategy are not fully captured by the report.

 See Appendix J
 Note 1 for OIG Response




                                               54
                                                                              09-P-0125


        I trust the attached comments from OAR, as well as Regions 1, 2 and 4, will be
helpful in completing your work on this report. Please feel free to contact Gay
MacGregor at 734 214-4438 if you have any questions about our comments or if we can
provide additional information.

Attachments




                                           55
                                                                              09-P-0125


Attachment 1
            Comments on the Draft Inspector General Evaluation Report
       "EPA Needs to Improve Its Efforts to Reduce Air Emissions at U.S. Ports,
                       (No. 2007-00296, January 12, 2009)"

Recommendations-Chapter 2

“We recommend that the Principal Deputy Assistant Administrator for Air and
Radiation:

       2-1 Assess EPA’s authorities and responsibilities under the CAA to regulate air
           emissions from foreign-flagged vessel engines in U.S. ports, in light of the
           new IMO Treaty, and report any shortfalls in such authorities to Congress.
           EPA should include in its analysis key air pollutants emitted by Category 3
           marine engines not covered by the IMO Treaty and show how the Agency
           will meet its responsibilities under the CAA.”

Response: Concur with comment. As part of EPA’s rulemaking for Category 3 Engines,
which EPA is under a regulatory deadline to finalize no later than December 17, 2009,
EPA plans to discuss how best to address emissions from foreign-flagged vessels in light
of the new IMO Treaty and the U.S. Government’s subsequent submittal to the IMO
proposing Emission Control Areas (ECAs) along all U.S. coastlines. We believe that our
decision to defer addressing this issue has been appropriate and necessary and has been
upheld by the D.C. Circuit Court by our understanding of the court's statement that the
delay would not "lead to any significant loss in emission reductions." Bluewater Network
v. EPA, 372 F.3d 404, 413 (D.C. Cir. 2004). With regard to key air pollutants emitted by
these engines, EPA plans to discuss and evaluate other pollutants emitted by Category 3
marine engines in its upcoming rule. Under the requirements of the Congressional
Review Act the rule will be submitted to Congress.

 See Appendix J
 Note 2 for OIG Response

       2-2 “Assess the extent to which Emissions Control Areas (ECAs) should be
           designated for all U.S. coastal areas, under the revised Annex VI provisions.
           For all areas where ECAs are needed, ensure that the appropriate
           application materials and supporting documentation are submitted to the
           IMO in a timely manner.”

Response: Concur with comment. OAR’s Office of Transportation and Air Quality is
working with the U.S. State Department, U.S. Coast Guard, and the Government of
Canada to develop a comprehensive application to establish ECA’s along all U.S. and
Canadian coasts. EPA expects to submit the application to the IMO so that it may be
considered by the IMO at its next regularly scheduled meetings in July 2009. Approval
by the IMO of this joint U.S. and Canadian Government ECA application could then take
place as early as the IMO’s March 2010 meeting.



                                            56
                                                                                 09-P-0125


 See Appendix J
 Note 3 for OIG Response

Recommendation-Chapter 3

“We recommend that the Principal Deputy Assistant Administrator for Air and
Radiation:

       3-1    Revise the Strategy for Sustainable Ports to include a transformational
       plan with appropriate designations of authorities and responsibilities, milestones,
       performance measures, and other management controls, and an assessment of
       resources, to assure the Agency’s port-related efforts under NCDC are
       successfully implemented.”

Response: We generally agree that it is important to establish milestones, performance
measures and reporting requirements to ensure successful implementation of EPA’s port
related efforts. It is important to recognize that the National Clean Diesel Campaign
(NCDC) already has a stringent set of milestones, performance measures and reporting
requirements, including a bi-annual Report to Congress and quarterly reporting through
the Agency reporting processes that are intended to outline a transformational plan
toward continued air emission reductions including reduced air emissions at U.S. Ports.
The Strategy for Sustainable Ports addresses all of EPA’s programs and all environmental
media and would not be an appropriate vehicle for closely monitoring progress toward
the reduction of air emissions at ports.

We believe we already have management processes in place that are adequate for the
broader purposes for which the Strategy for Sustainable Ports was developed. The
Strategy is the product of two meetings of Regional Administrators (RAs) and Assistant
Administrators (AAs) from across the agency; one in September of 2006 and the other in
September 2007. The Strategy was developed with the intent of supporting all EPA
programs by fostering knowledge across the Agency of efforts underway in various
offices and regions to address environmental issues at the nation’s ports. In addition, it
was intended to clarify and provide a uniform Agency view as well as promote
coordination and synergy between the EPA program offices and regions working with
ports and other port-related stakeholders. It was not intended to be a stand alone plan of
action. An EPA-wide Ports Team, comprised of headquarters and regional
representatives, meets periodically for the purpose of keeping each other updated on the
activities in the strategy. The Agency-wide Team has offered semi-annual informational
updates for the Regional Administrators.

At the meeting of the RAs and AAs in New York in September 2007, there was
consensus among the RAs, AAs and the EPA Deputy Administrator, that the items
captured in the Strategy for Sustainable Ports were ongoing activities in existing
programs that already had adequate management controls in place, as well as designated
responsible organizations. All managers agreed that the program offices and regions had
sufficient management controls in place for each of the action items in the Strategy and,
therefore, any added controls or reporting beyond these informational updates would be


                                             57
                                                                                    09-P-0125


duplicative rather than value-added. This further underscores the rationale for using the
NCDC program as the best vehicle for monitoring air emission reductions at ports.

 See Appendix J
 Note 4 for OIG Response


General Comments and/or Clarifications

p. 2: “At a Glance”… “ Despite the emphasis that EPA has placed on voluntary
partnership programs, such as the diesel collaborative, such initiatives have not been
implemented at many U.S. ports.” Based on our experience, this statement is inaccurate
as most of the port authorities located in nonattainment areas have established programs
to address air pollution at their ports (see list of additional ports in comments on
Attachment G below). Even in attainment areas, the EPA regions are engaged with their
port authorities on the issue of air pollution-whether or not they are part of the regional
diesel collaborative. In addition, EPA is active with the American Association of Port
Authorities (AAPA) to promote action at the ports to reduce air emissions. Membership
by port authorities in the regional diesel collaborative is not sufficient to judge whether a
port is engaged with EPA to voluntarily reduce air pollution. Smaller ports may not have
staff to actively participate in the collaborative, but it does not mean that they are not
addressing air pollution or working with EPA to do so. In our comments on Appendix G
(below), we provide several examples of activities not captured by the report.

 See Appendix J
 Note 5 for OIG Response


p. 4: “EPA’s actions to address air emissions from large oceangoing vessels in U.S. ports
have not yet achieved the goals for protecting human health.” While it is true that ocean
going vessels contribute to air emissions while “in” port, the EPA is also greatly
concerned about emissions from ocean going vessels “entering” ports. “Entering” ports
could include distances up to 200 nautical miles (nm) from an actual “in” port area and
significant river transit. This distinction goes to the heart of the foreign-flag vessel issue
regarding the reach of EPA’s authority under the CAA to establish emission standards to
control Category 3 emissions. Air quality modeling recently conducted by the EPA to
support its proposed ECA application show that emissions from as far as 200 nm from
ports impact air quality, not only of the immediate port areas, but for 100 of miles inland
from these ports. These findings will be a key element of EPA’s application to the IMO
for establishing Emissions Control Areas -- oceangoing vessel significantly contributes to
air quality problems at great distances from the port proper. This same language either
“in port” or “at ports” is found throughout the report on pages 1, 3, 8, 13, 14 and 16.
EPA suggests clarifying this language to make clear EPA’s actions are meant to include
emissions from oceangoing vessels “entering” and “in” port.




                                               58
                                                                                   09-P-0125


 See Appendix J
 Note 6 for OIG Response


p. 11: Last paragraph, we suggest clarifying the last sentence as follows:

“In October 2008 Parties to Annex VI of the MARPOL Protocol adopted new
international standards for NOx emissions for marine diesel engines above 130kW
(including ocean going vessel engines) and the sulfur content of fuel oil used onboard
ships to address both SOX and PM emissions. At the same time, the U.S. deposited its
instrument of ratification and adopted amendments to the Act to Prevent Pollution from
Ships making it possible for the U.S. Government to enforce the Annex VI standards for
foreign vessels that enter our ports and territorial waters.”

With regard to PM, the Annex was revised to make it very clear that the fuel sulfur limits
are intended to address both SOx and PM emissions (the title of Regulation 14 is now
Sulphur Oxides (SOx) and Particulate Matter). We’ve also change the language to make
clear that the Annex does not address just residual fuel, but covers all fuel, including
distillate. This is important because distillate fuel sulfur levels can be quite high in some
countries, and the 1,000 ppm fuel sulfur level can easily be exceeded.

 See Appendix J
 Note 7 for OIG Response


p. 13: 2nd paragraph, 3rd sentence beginning with “EPA”, delete sentence and replace
with following, “EPA deferred more stringent emissions standards for ocean going vessel
engines because EPA believed it needed additional technical data to determine feasibility
of new emission control technologies prior to developing a proposed rule. During this
time, negotiations with the IMO continued regarding the creation of more stringent
emissions standards for ocean-going vessels.” This change more accurately states the
rationale for EPA’s decision to defer rulemaking. EPA issued a final rule on November
29, 2007 deferring Category 3 engine emission standards until December 17, 2009
because it needed additional information regarding promising control technologies. The
advance notice of proposed rulemaking (ANPRM) on controlling emissions from marine
diesel engines was published on December 7, 2007 and requested that interested parties
provide us with any additional technical data they might have (72 FR 69522). We
received a number of comments and new data as a result.

 See Appendix J
 Note 8 for OIG Response


p.14: 1st sentence, revise as follows, “While this NOX standard only applies to engines
on U.S. vessels, which represent about 10 percent of U.S. port calls, foreign-flagged
vessels meet IMO/Annex VI - Tier 1 standards because they are required under Annex
VI. However …” This rephrasing makes clear that, while modest, currently all OGVs


                                              59
                                                                                   09-P-0125


whether U.S.-flagged or not are currently subject to the same NOx standards, and this is
why we didn’t apply the CAA standards to foreign-flag vessels; this approach was upheld
by the D.C. Circuit Court.

 See Appendix J
 Note 9 for OIG Response


p. 14: 2nd paragraph… Suggest revising first sentence so that it reflects current state of
standards in U.S. and world. “In its 2003 rulemaking, EPA set its NOX standards for
U.S.-flagged vessel engines equivalent to the Tier 1 standards adopted by the IMO in
MARPOL Annex VI.”

 See Appendix J
 Note 10 for OIG Response


p.15: 1st paragraph, footnote 19. Suggest either moving footnote to 3rd sentence right
after “residual fuel” or deleting since the clause following the first use of this term
essentially states the same information that is in the footnote.

 See Appendix J
 Note 11 for OIG Response


p.15: Section entitled “CO, HC, and Air Toxics”, 3rd sentence, suggest adding text so
that it would now read, “The Agency plans to address emission limits for CO, HC and air
toxics in their C3 rule scheduled to be finalized in December 2009. According to OTAQ
representatives,...” EPA’s approach to addressing HC and CO has evolved since the IG
discussed this with OTAQ representatives. This proposed language incorporates the most
recent status of how these emissions will be addressed.

 See Appendix J
 Note 12 for OIG Response


p. 17: 2nd paragraph, last two sentences. The last sentence in this paragraph inaccurately
characterizes EPA actions with regard to the Category 3 April 2007 rulemaking date.
EPA did not miss this date rather it proposed and finalized a new rule which extended the
deadline to December 17, 2009. A correct statement would be, “However, EPA extended
that deadline to December 17, 2009”.

 See Appendix J
 Note 13 for OIG Response




                                              60
                                                                                  09-P-0125


p. 18: 3rd paragraph, After the last sentence we suggest an additional sentence be inserted
to clarify that the Marpol Annex VI revisions were finalized and adopted by the Parties to
MARPOL Annex VI in October 2009. Add the following, “These standards were
adopted by Parties to Annex VI of the MARPOL Protocol in October 2008.”

    See Appendix J
    Note 14 for OIG Response


p. 19: There are a number of bullets which outline the differences between the U.S
submittal and the final IMO agreement which inaccurately state the differences. We
request the following changes be made to these bullets:
•       ∀It requires NOx percentage reductions that are either within the lowest range or
slightly below the level recommended in the U.S. proposal”… change footnote to read:
The U.S. proposed a Tier 2 NOx limit ranging from 15% to 25% below the current limit
and a Tier 3 NOx limit 80% below the Tier 2 NOx limit. The agreement calls for a Tier 2
NOx limit 15.3%-21.4% (depending on engine speed) below the current limit and a Tier
3 NOx limit 76.4%-74.0% (depending on engine speed) below the Tier 2 NOx limit (80%
below Tier 1) for emissions from engines above 130 kW installed on vessels constructed
after January 1, 2011.

    See Appendix J
    Note 15 for OIG Response


•    The following statement is not correct and we suggest deleting it:

"The agreement does not provide for SOx reductions to be obtained by means other than
setting limits on the percentage of sulfur contained in fuel. In contrast, the U.S. proposed
a performance-based approach for reducing sulfur emissions. Under this approach, in
addition to proposed sulfur limits, the U.S. proposal contained a specific SOx standard
(0.4g/kW-hr) which might be met by different compliance methods, such as exhaust gas
cleaning technology. "

We believe the confusion comes from the way Regulation 14 is organized. In the past,
section 14(4)(b) specifically stated a SOx limit of 6.0 g/kW-hr as an alternative to the
1.5% fuel sulfur standard for SECAs. The alternative SOx standard is no longer
discussed in Regulation 14, but still exists.

Regulation 4 of the amended Annex VI states: "The Administration of a Party may allow
any fitting, material, appliance or apparatus to be fitted in a ship or other procedures,
alternative fuel oils, or compliance methods used as an alternative to that required by this
Annex..." It later states that "the Administration or Party should take into account any
relevant guidelines developed by the Organization pertaining to the equivalents..."

Under the new structure of the regulations in Annex VI, an exhaust gas cleaning system
(EGCS or "scrubber") may still be used as an alternative to low sulfur fuel.


                                              61
                                                                                  09-P-0125



 See Appendix J
 Note 16 for OIG Response


p. 24: 2nd paragraph, 2nd sentence, beginning with, “These voluntary...” after “..because..”
suggest inserting the following new text, “ and because EPA regulations generally apply
to newly built engines and only to existing locomotives. There are two exception to this
which impact port emissions: first, EPA requirements that marine diesel engines above
600kW meet more stringent emission limits when they are remanufactured beginning in
2008 (73 FR 25098) and second, the Annex VI amendments which also contain a
remanufacturing program for engines that will begin to apply as soon as kits are certified,
which could be as soon as 2010.”

 See Appendix J
 Note 17 for OIG Response


p. 25: 3rd paragraph: The DrayFleet Model is now complete.

 See Appendix J
 Note 18 for OIG Response


p. 25: “In its Strategy for Sustainable Ports, EPA committed to work with the 75 largest
ports to develop baseline emissions inventories.” EPA is providing inventory guidance
so that port authorities or state agencies can develop their own inventories consistent with
that guidance. The Current Methodologies and Best Practices for Port Emissions
Inventories guidance document is being updated under contract.

 See Appendix J
 Note 19 for OIG Response


p. 26: “Voluntary Initiatives have not been implemented at many U.S. port.” We believe
this is an inaccurate statement and the title of the section should be changed. We believe
that many more ports are addressing air issues through our voluntary efforts than what is
reflected in this report. We have provided examples of some of these omissions in our
comments on Appendix G (below) and many examples are provided in the attachment
from Regions 1 and 4.

Whether a port authority is an official member of its regional diesel collaborative is not
necessarily indicative of whether that port is addressing air pollution through voluntary
actions or whether they actively engaged with our voluntary programs. The National
Clean Diesel Campaign (NCDC) Clean Ports USA Program has held terminal operators
workshops in Duluth, New York and Philadelphia, Puget Sound, and Houston as well as
workshops in Corpus Christi and an international Clean Ships conference in San Diego.


                                              62
                                                                                   09-P-0125


In addition, EPA supports Faster Freight- Cleaner Air conferences around the country
(Long Beach, Puget Sound, and New York City). The Clean Ports USA Program works
directly with the American Association of Port Authorities to reach out to their members,
which include the largest 88 port authorities in the U.S. In addition, Clean Ports USA
works directly other stakeholder groups such as state and local air agencies,
transportation agencies, environmental and community groups, and the maritime
industry.

 See Appendix J
 Note 20 for OIG Response


Appendix G:
Of the port authorities listed as not participating in the Regional Collaboratives, several
have reduced their diesel emissions or are in the process of developing projects and
working with EPA. It would be helpful to indicate what constitutes “participation” in
Regional Collaboratives. We believe there are at least an additional 6 port authorities
that are participating, which would be two thirds of the ports in nonattainment areas.

Bridgeport, CT is participating in the Northeast Diesel Collaborative (NEDC). They
participate in the NEDC working group calls and emails and the port authority applied for
an EPA competitive grant but did not score high enough to be selected.

Cleveland’s tenant FMC has retrofitted cargo handling equipment (CHE) as part of an
EPA consent decree with Caterpillar and was recognized by the EPA Deputy
Administrator and their US Senator for their efforts to reduce diesel emissions. FMT
have had several discussions with EPA about technologies to reduce emissions from their
vessels as well.

Port of Detroit has hosted EPA on tours and has met with EPA to discuss possible
projects. Lack of funding has precluded their participation so far.

Port of Indiana has met with EPA on several occasions. The Indiana Department of
Environmental Management (DEM) has applied on the port’s behalf for competitive
grant funding but the application did not score high enough to receive an award.

The Port of Stockton participates in West Coast Collaborative (WCC) events and has
indicated a willingness to reduce its diesel emissions. The port executive director has
met with EPA about what the port might do to reduce its diesel emissions.

Port of Wilmington has investigated using biodiesel in their CHE and has had discussions
with EPA. Port of Wilmington representatives have attended Clean Port USA workshops
in Philadelphia.

 See Appendix J
 Note 21 for OIG Response



                                              63
                                                                               09-P-0125



p. 28: We agree that the Environmental Technology Verification (ETV) program was a
good compliment to OTAQ’s own verification program and that it enhanced our program
when it was fully funded.

 See Appendix J
 Note 22 for OIG Response


p. 29: 2nd paragraph. It was not until FY08 that we had substantial funding dedicated to
diesel emissions reductions. With the exception of funding for school bus retrofits, all
projects were funded either out of general EPA money under CAA Section 103 or
regional discretionary funds. These funds were limited, in fact in some years OTAQ had
no funds for diesel reduction programs and were only able to fund any port related
projects because the Office of International Activities (OIA) did have money to
contribute to our efforts. Furthermore, EPA’s voluntary Clean Ports USA began in 2005.
Given the resource constraints, we believe it is significant that EPA was able to spend
$5.3M over the period of 2002 – 2007 for air quality projects at ports, however, we agree
that lack of funding has hampered the program. The FY08 Diesel Emissions Reduction
money was received late in FY08, but we believe that when all of they FY08 grants are
awarded, we will see the amount of money awarded for port related projects increase
substantially.

 See Appendix J
 Note 23 for OIG Response


p. 31: EPA’s Strategy for Sustainable Ports, as stated earlier, was not intended to be a
plan with measurable results. It was intended as a cross program coordination tool and as
a means to have dialogue with outside stakeholders. The elements of the plan are
embedded in ongoing agency programs that have management controls and are
consistently reviewed and revised within the offices and regions. It was explicitly
decided by the plan’s authors, who were political appointees under the previous
administration that no additional management controls or reporting requirements were to
be associated with this plan.

 See Appendix J
 Note 24 for OIG Response




                                            64
                                                                                  09-P-0125


                                    Attachment 2
             EPA Region 1 Comments on Draft OIG Evaluation Report
       "EPA Needs to Improve Its Efforts to Reduce Air Emissions At U.S. Ports"
                        (No. 2007-00296, January 12, 2009)

Re pp. 26-27: Opportunities Exist to Improve Participation in Regional Diesel
Collaboratives

Many Northeast ports have participated in the Northeast Diesel Collaborative ports work
group over the three-plus years since it was formed. Most Northeast states also
participate. See the current roster of participants appended below; others (academics,
state agency staff, SmartWay partners, etc) participate informally in some calls and
receive information distributed to the work group.

The Northeast ports are extremely diverse, ranging from huge container and bulk
shipping facilities to small fishing ports. Many New England (EPA Region 1) ports are
small, cramped, low-volume ports. Most ports own very little land and so have few
tenant businesses, let alone operations of their own, minimizing their leverage. Some are
primarily fishing ports or bulk liquid import ports, or have evolved substantially more
land-oriented uses (e.g., processing seafood trucked in and out by land) than water-
dependent activity. Some ports would like to reinvigorate maritime business but face
significant challenges due to harbor siltation, property contamination and/or community
opposition. Meeting needs this diverse is challenging. Over the years we have learned
more about what topics, opportunities and incentives engage our ports, and have focused
our bi-monthly NEDC ports work group calls and other outreach on those levers.
Likewise, not all New England states focus on ports because emissions attributed to
vessels and cargo-handling equipment do not represent a significant portion of statewide
air emissions. (Port-oriented truck traffic has been difficult to quantify because access to
most port businesses is diffuse rather than centralized and controlled. DrayFLEET may
help with this.)

We respect the scarce resources and diverse interests of our ports by holding all NEDC
ports work group meetings (except for our kickoff workshop three years ago) by
conference call. Each call is organized around a topic that the group has expressed
interest in (port trucking efficiencies, approaches to controlling vessel sulfur emissions,
etc), and features one or more presentations by expert speakers, followed by discussion of
how to apply the lessons heard to Northeast operations. Several of our ports have
attended special events that EPA has helped stage, such as the Short Sea Shipping
Symposium (www.umassd.edu/sustainability/shortsea.cfm) and Faster Freight Cleaner
Air East Coast (www.ffcaeastcoast.com/index.html).

Because gatherings and conference calls alone cannot fully engage our ports, EPA
Region 1 and 2 staff have visited many Northeast ports to promote Clean Ports USA and
NEDC efforts, raise interest in seeking clean diesel funding, and urge ports to work with
us to assess their emissions and fuel-efficiency and develop "green port" strategies. Thus
far Region 1 staff have visited the ports of Boston, Gloucester, Salem, New Bedford,
Fall River, Fairhaven, Bridgeport, and New Haven. We have met with most of these
ports several times, and almost always in the company of state agency counterparts, for

                                              65
                                                                                 09-P-0125


smoothest coordination among levels of government. We sent each New England port
our Options for the Marine Ports Sector: Green Strategies for Sustainable Ports document
(see www.epa.gov/region1/eco/diesel/ports.html) with an invitation to ask Region 1 staff
for help in developing individual port strategies based on these suggestions. We plan to
visit other New England ports in 2009.

Two of our ports, with assistance from Region 1 staff, have drafted "sustainable port"
strategies modeled on our "Options" document and tailored to their operations and
resources. In addition, Massport is working a comprehensive portwide sustainability
strategy, informed by an emissions inventory underway. Massport has solicited Region
1's input on both efforts and we have been able to bring regional and state expertise and
Clean Ports USA tools to the table. With these three examples now in hand, we hope to
inspire other ports to undertake similar self-examination and planning. (For more
information on these individual efforts, scroll down to "Current Sustainable Port
Strategies in New England" at www.epa.gov/region1/eco/diesel/ports.html).

 See Appendix J
 Note 25 for OIG Response


Re pp. 28-29: Limited Resources for Implementing EPA’s Efforts to Reduce Port
Emissions

Until the Diesel Emissions Reduction Act received appropriations, EPA Regions could
offer little or no seed funding to inspire ports to think about making capital investments
in emission-reduction technology. Financial incentives are especially important in the
ports sector because few fuel-saving (cost-effective) technologies pertain to operations
owned by ports, and many of these are currently expensive and relatively unproven (e.g.,
hybrid CHE). (Recognizing that many New England ports of necessity need to focus on
easy, low-cost emissions reduction projects first, we "tiered" our Options document to
present these suggestions first.) EPA Regions 1 and 2 heavily advertised 2008 Clean
Diesel grant funds to our ports, and we received more worthwhile applications than we
could fund. We are about to announce two such grants to ports, and hope to fund
additional port-based projects with 2009 Clean Diesel funds.

 See Appendix J
 Note 26 for OIG Response


Re p. 25: Limited Data to Verify Results of Voluntary Actions

Anticipating the need to demonstrate conformity with air quality standards for future
dredging projects, Massport began working on an emission inventory in 2008. EPA
Region 1 hosted a kickoff meeting comprising Massport staff, their consultant, EPA and
state air modeling staff, and EPA and state NEDC participants; Clean Ports USA staff
participated by phone. Later in 2008, Region 1 recruited NEDC ports work group
participants (and New England -based SmartWay partners) to listen in on a presentation


                                             66
                                                                                  09-P-0125


on DrayFLEET given by SmartWay staff to the Mid-Atlantic Diesel Collaborative's
goods movement workgroup. By openly offering support as convener, sounding board,
and provider of agency tools and expertise, EPA can facilitate ports' own efforts to assess
their emissions and track improvements.

 See Appendix J
 Note 27 for OIG Response


Re pp. 30-31: EPA’s New Strategy for Sustainable Ports Lacks a Transformation
Plan

Like other regions and offices, EPA Region 1, provides semi-annual informational
updates through the Agency-wide Ports Team giving great detail on how we are fulfilling
our commitments under the national Strategy for Sustainable Ports. Region 1 appreciates
the flexibility granted by the RAs and AAs attending the September 2007 meeting, in
choosing which aspects of the Strategy to address in these first few years of its existence,
given the needs of our ports, our existing expertise, available funding, and the
advisability of growing our efforts in cooperation with our ports in order to insure
maximum buy-in and results. It appears that the draft OIG report may under-represent
EPA involvement with ports, which should be corrected before the agency is asked to
“transform” its work and institute new management controls.

 See Appendix J
 Note 28 for OIG Response


Re p. 48: Appendix G

Correction: Bridgeport CT is one of the most active participants in the Northeast Diesel
Collaborative.

 See Appendix J
 Note 29 for OIG Response




Note: Region 1 also provided the OIG with a list of names of Northeast Diesel
Collaborative workgroup participants as of February 4, 2009. These names have been
excerpted from the Agency response.




                                              67
                                                                                   09-P-0125


Attachment 3
               Region 2 Comments on Draft OIG Evaluation Report
       "EPA Needs to Improve Its Efforts to Reduce Air Emissions At U.S. Ports"
                        (No. 2007-00296, January 12, 2009)

Thank you for the opportunity to comment on the draft report. We appreciate the
importance of this report on the Ports Sector to ensure that the air is protected and healthy
to breathe.

The ratification of MARPOL Annex VI significantly enhances emission control potential
on foreign-flagged ocean going vessels. Also, the Agency’s work with the U.S. State
Department, U.S. Coast Guard and the Government of Canada to develop an application
to establish an emission control area along the North American coasts will provide
greater controls on ship emissions farther from the shore.

Region 2 believes that voluntary initiatives have been successfully implemented at ports
throughout the U.S. Region 2 and our ports have partnered well on various clean diesel
projects and the ports have made an effort to voluntarily reduce their environmental
footprint. In 2008, the Puerto Rico Ports Authority joined the Northeast Diesel
Collaborative Ports Workgroup in an effort to learn emission reduction strategies to
employ at their ports.

We would like the voluntary efforts of Region 2 ports to be reflected in the Noteworthy
Achievements section of the report. For example,
• Region 2, OTAQ, New Jersey Department of Environmental Protection and Port of
   New York and New Jersey are working with industry to develop and test hydraulic
   hybrid yard tractor project that is expected to reduce diesel emissions by 70%.
• In addition to the use of ultra low sulfur diesel in cargo handling equipment, port
   terminals in the Port of New York and New Jersey have been purchasing terminal
   equipment with cleaner on-road engines.
• The Ports of Philadelphia, Delaware and South Jersey have formed a Green Ports
   Initiative to develop short term and long term strategies for making port operations
   more environmentally friendly. A few examples of greening solutions that may be
   explored include energy/water conservation, electric or alternative fuel vehicles and
   equipment,, renewable sources of energy (solar and wind installations), new
   technologies and innovations in logistics processes (traffic management controls,
   congestion mitigation) and green buildings/facilities.

 See Appendix J
 Note 30 for OIG Response




                                              68
                                                                                  09-P-0125


                                   Attachment 4
                      Region 4 Response to OIG Report titled
       “EPA Needs to Improve Its Efforts to Reduce Air Emissions at U.S. Ports”


The report is generally accurate in the representation of EPA Region 4 efforts at inland
and marine ports. Due to resource limitations and statutory requirements relating to the
National Ambient Air Quality Standards (NAAQS), Region 4 focused its resources on
ozone and PM 2.5 nonattainment areas. This decision to maximize the impacts of limited
resource has reaped significant gains in air quality in the Southeast. Due to these focused
efforts, air quality has improved at many ports, and EPA redesignated the South Florida,
Tampa and Jacksonville ozone nonattainment area to attainment to attainment for the
NAAQS. Four major ports are located in these regions and the citizens and local
community benefited from this approach (Miami, Everglades, Tampa and Jacksonville
ports). This air quality improvement was accomplished by coordinating efforts with state
and local agencies and leveraging non-EPA resources to achieve emission reductions.

Furthermore, Region 4 made the determination that the statutory requirements related to
the 8-hour ozone standard predicated focusing limited resources on those areas that could
potentially attain the 8-hour standard through early voluntary reductions. This Early
Action Compact (EAC) program was successful and Region 4 achieved significant air
quality reductions in those areas up to 5 years before the statuary deadlines and millions
of people are breathing cleaner air because of this decision. Both of these efforts should
be mentioned in the report to demonstrate that while efforts were not focused on the
ports, EPA Region wisely managed its limited resources. The appropriate page for these
insertions is Page 29.

 See Appendix J
 Note 31 for OIG Response


The report mentions the port of Wilmington and the Port of Charleston as examples cited
in the 2003 marine rule for why regulations were necessary and implies that EPA Region
4 has not worked with these ports on air quality efforts. It is factual that EPA Region 4
did not target for air quality improvements at these ports during the evaluation period, but
Region 4 has had conversations with both the NC Port Authority and the SC Port
Authority about air quality improvements at ports. In NC, EPA is part of a Green Port
effort looking at how expansions at the port of Wilmington and a smaller port can grow
“green.” These discussions have been intermittent since 2006.

Since the Southeast Diesel Collaborative (SEDC) began, EPA Region 4 has been
involved with many of the major ports in the southeast (Charleston, Savannah, Tampa,
Everglades, Jacksonville, Miami, and Louisville) through the partnerships developed
through the SEDC. A major philosophy of the EPA Region 4 efforts and the SEDC is
that one agency can’t do it all and that we should leverage partner resources to achieve
faster and more significant reductions in all aspects of the diesel reduction strategies. In
this manner, EPA Region 4 is able to obtain broader and larger engagement (and


                                             69
                                                                                09-P-0125


corresponding emission reductions that GAO did not attribute to EPA efforts) by creating
ownership of the outcome at all levels of participation including government, non-
government and private organizations. Projects that are ongoing in these areas that are
affiliated with the SEDC are:

   1.    Charleston “partnership for Growth”-This program involves developing and
         comprehensive strategy to address environmental issues (air, water and land)
         associated with port operations. Region 4 was a key partner in the development
         of a state MOA which committed the port to reducing diesel emissions. A key
         part of this was the development of a comprehensive emissions inventory to
         identify emission sources. This $100,000 project was recently completed and is
         currently in review. In addition, the SEDC is providing $750,000 as part of a
         $1.8 million effort to reduce diesel emissions through retrofits, electrification
         and other land side emission reduction strategies. Region 4 expects to award the
         grant by the end of January.
   2.    Savannah-“Green CHE project”-Through the SEDC assistance agreement
         competition, EPA Region 4 selected the port of Savannah to retrofit a
         significant portion of its cargo handling equipment. This award should be
         funded by the end of January 2009. As part of this effort, the port also switched
         to ULSD 1 year in advance of the regulatory mandates.
   3.    Port Everglades-EPA partners and Port Everglades have worked on several
         environmental initiatives related to air quality. Port Everglades has used
         biodiesel in the past and is looking for a reliable high-quality supply.
   4.    Port of Jacksonville-EPA Region 4 and local partners are working to ensure that
         the expansion of the port of Jacksonville will limit the environmental impact.
         Local leaders are looking at logistics and other creative measures to decrease
         idling times and delays associated with the new container portion of the port.
   5.    Port of Louisville-SEDC partners worked with port to institute a biodiesel
         program.
   6.    Port of Memphis-EPA Region 4 and Region 6 have worked in the Port of
         Memphis to evaluate Tug and Barge emissions.
   7.    Port of Memphis- The Memphis-Shelby County (TN) Health Department will
         begin monitoring of volatile organic compounds (vocs) that are emitted from
         barges traveling along the Mississippi River that enter and dock at ports in
         Memphis. The monitoring will involve the use of optical remote sensing
         technology and will begin in June 2009.
   8.    Savannah-EPA Region 4 is working with a local community through the CARE
         grant program to evaluate and develop a strategy to reduce emissions in the
         area. Region 4 is facilitating discussions with the port regarding truck travel
         patterns and emissions associated with nearby warehousing activities.
   9.    Charleston-EPA Region 4 is working with the Charleston community on
         another CARE grant. This program will focus on education and outreach
         related to heavy duty diesel idling.

In addition to these projects, EPA Region 4 has specifically targeted the inclusion of
ports in the SEDC. Representatives of several ports have been key speakers on SEDC
monthly calls and at the annual SEDC Partners meeting.


                                            70
                                                                                 09-P-0125


There is a port representative on the influential SEDC Strategic Planning Committee and
on the SEDC Leadership Council. The Leadership Council consists of key leaders in the
Southeast, and EPA Region 4 is an ex-officio member of this group.

Finally, the SEDC Strategic Plan for 2009 prioritizes the development and
implementation of a Green Corridors strategy for freight movement. Ports are a critical
part of this effort and the starting point of the freight chain. Over the next 3 years, EPA
Region 4 anticipates that this effort will focus on distribution centers associated with
Ports, port specific emissions and logistic decision related to rail and land transport of
freight from ports.

 See Appendix J
 Note 32 for OIG Response




                                             71
                                                                                09-P-0125




                                                                             Appendix J

            OIG Evaluation of Agency Response
While we agree that progress has been made because of the October 2008 international
agreement to control emissions, EPA still needs to do more to assure that air emissions at
ports are sufficiently addressed. We agree with EPA’s commitment in its response to
address emission limits for CO, HC and air toxics in its rule for Category 3 marine
engines scheduled to be finalized in December 2009. We are encouraged by EPA’s
commitment to work with the U.S. State Department, U.S. Coast Guard, and the
Government of Canada to develop a comprehensive application to establish ECAs along
all U.S. and Canadian coasts.

Note 1 -       We do not believe that our report is incomplete in our description of EPA's
               efforts under the National Clean Diesel Campaign. Our report states that
               EPA has provided multiple ways for ports and stakeholders to participate
               in EPA’s voluntary programs. However, we focused on participation in
               regional diesel collaboratives and technology verification, because these
               partnership programs were identified by OTAQ and EPA region personnel
               as significant components of the NCDC. We have updated some of the
               information in our report to more accurately reflect participation from
               certain stakeholders. However, EPA has not provided convincing
               evidence to support the idea that our findings are no longer accurate (see
               Note 20 for further details).

               EPA presented its Strategy for Sustainable Ports as its strategy for
               reducing pollution at U.S. ports. As we point out in Note 24, the Strategy
               for Sustainable Ports remains a public document on EPA’s Website with
               its stated purpose to “… support existing and new EPA programs and
               projects that will produce measurable results within the next 18 months…”
               As written, the Strategy for Sustainable Ports lacks the management
               controls to assure that its stated purpose is achieved. If the Agency
               intends for its efforts to reduce air emissions from U.S. ports to remain
               outside of the Strategy for Sustainable Ports, then an appropriate
               framework to oversee these activities should be in place. The OIG has
               concluded that such a framework is not in place. We continue to believe
               that because of the significance of port emissions and because of the
               projected increases in air emissions from port activities, EPA needs to
               develop a plan to address the major sources of air emissions at ports that
               EPA plans to reduce. The plan should include appropriate designation of
               authorities and responsibilities, milestones, performance measures, other
               management controls, and an assessment of resources to transform the
               Agency’s port-related efforts under the NCDC into successful
               implementation. We consider this recommendation open and unresolved.




                                             72
                                                                              09-P-0125


Note 2 -   Although the Agency said that it concurred, with comment, with
           Recommendation 2-1, it did not state that it would assess its authorities
           and responsibilities under the CAA to regulate air emissions from foreign-
           flagged vessel engines in U.S. ports and report any shortfalls in such
           authorities to Congress. EPA’s comments were not responsive and do not
           satisfy the intent of the recommendation. Due to the length of time (over
           14 years) it has taken EPA to get more stringent standards for oceangoing
           vessel engines by working with the IMO, we believe that EPA should
           conduct such an assessment and report any shortfalls in its authorities to
           Congress. The Agency agreed to evaluate the need to regulate pollutants
           other than those covered by the IMO Treaty as part of EPA’s rulemaking
           for Category 3 marine engines, which will be finalized by December 17,
           2009. We consider Recommendation 2-1 to be open and unresolved.

Note 3 -   The Agency concurred with comment on Recommendation 2-2. The
           Agency stated that it is working with other U.S. Government agencies and
           the Government of Canada to develop a comprehensive application to
           establish ECAs along all U.S. and Canadian coasts. We view this effort as
           being essential to any significant reduction of emissions from engines of
           oceangoing vessels that are approaching or in U.S. ports. The actions the
           Agency outlined in its response to Recommendation 2-2 satisfy the intent
           of our recommendation.

Note 4 -   We continue to believe that because of the significance of port emissions
           and because of the projected increases in air emissions from port activities,
           EPA needs to develop a plan to address the major sources of air emissions
           at ports that EPA plans to reduce.

           EPA’s Strategy for Sustainable Ports was the only strategic plan for
           reducing pollution at U.S. ports that EPA provided to the OIG. If EPA
           intends for its efforts to reduce air emissions from U.S. ports to remain
           outside of the Strategy for Sustainable Ports, then an appropriate
           framework to oversee these activities should be in place. The OIG has
           concluded that such a framework is not in place.

           EPA has not yet produced its annual performance report to Congress
           detailing the results of NCDC projects in FY 2008. While we believe that
           such reporting is important, this is only one element of a management
           plan. These types of efforts have not been incorporated into a focused
           management plan that specifically targets air quality improvements in port
           areas. Therefore, we continue to recommend that EPA create a
           transformation plan with appropriate designation of authorities and
           responsibilities, milestones, performance measures, other management
           controls, and an assessment of resources to transform the Agency’s port-
           related efforts under the NCDC into successful implementation. We
           consider this recommendation open and unresolved.



                                         73
                                                                              09-P-0125


Note 5 -   The OIG does not believe the statement is inaccurate. We acknowledge
           that EPA has reached out to a number of ports through its voluntary
           partnership programs; however, we believe that more work needs to be
           done. Because OTAQ and EPA region staff identified regional diesel
           collaboratives as a significant component of the NCDC, we emphasized
           stakeholder participation in these partnerships in the report. Many ports
           still have not implemented voluntary emission reduction initiatives
           through regional diesel collaborative efforts. See Note 20, below, for
           further details.

Note 6 -   We have amended our final report to state that the Agency is concerned
           about the harmful effects of emissions from engines of large oceangoing
           vessels that are approaching U.S. ports, as well as those that are already in
           U.S. ports. In addition, we added the following footnote on the first page
           of our final report when reference is made to “mobile sources operating at
           U.S. ports.”

                  According to the Agency, air quality modeling recently conducted
                  by EPA to support its proposed ECA application shows that
                  emissions from as far as 200 nautical miles from ports impact air
                  quality, not only in the immediate port areas, but for 100 miles
                  inland from these ports. When this report refers to vessels “in U.S.
                  ports,” it is also referring to vessels that are approaching U.S.
                  ports.

Note 7 -   We have clarified the sentence concerning the adoption of new NOx
           standards and sulfur content of fuel oil used onboard ships as suggested by
           the Agency.

Note 8 -   In its response to our draft report, the Agency stated that EPA deferred
           more stringent emissions standards because “. . . it needed additional
           technical data to determine feasibility of new emission control
           technologies . . .” However, statements by EPA and CARB before the
           U.S. 2007 proposal to IMO indicated that the prospect of new technology
           did not preclude the adoption of more stringent emission standards for
           Category 3 engines. For example, in its advanced notice of proposed rule
           making, dated December 7, 2007, the Agency stated that “. . . as early as
           the 1997 conference, many countries 'already recognized that the NOX
           emission limits established in Regulation 13 [of Annex VI] were very
           modest when compared with current technology developments.'" Further,
           EPA stated in the draft of its 2003 rule that a NOx emission standard 30
           percent below international standards “. . . [could] be met relatively soon
           using in-cylinder controls.” In 2007, CARB stated that technology is
           available to achieve a 90 percent reduction in NOx emissions and a 60
           percent reduction in PM emissions from Category 3 engines. Further,
           while EPA’s standard allowed the use of fuel with a sulfur content of
           45,000 ppm, a large global shipping company had successfully used fuel


                                          74
                                                                              09-P-0125


            with a sulfur content of 3,000 ppm in vessels operating off the coast of
            California. This practice demonstrated that the technological capability of
            existing engines allowed the use of fuel with substantially less sulfur. As
            such, we did not amend our report to include EPA’s assertion regarding
            technology.

Note 9 -    We do not agree with the Agency that reference needs to be made to the
            international NOx standard in the cited paragraph. Such a reference would
            be redundant with the next paragraph where the first sentence states that
            EPA’s NOx standard is equivalent to the international NOx standard.
            Accordingly, we did not change the cited paragraph.

Note 10 -   We agree with the Agency’s suggestion for revising the cited sentence and
            have changed the report accordingly.

Note 11 -   We agree with the Agency’s observation that there is some redundancy
            between the cited sentence and the footnote, and we have deleted the
            footnote and revised the text accordingly.

Note 12 -   We are pleased that the Agency’s position regarding the control of CO,
            HC, and air toxics has evolved since we completed our field work, and
            that EPA plans to address emission limits for CO, HC, and air toxics in its
            December 2009 rule.

Note 13 -   We believe that the terminology used in our draft report accurately
            describes the situation – that EPA said in its 2003 rulemaking that the
            Agency would address emissions for large oceangoing vessels by April
            27, 2007. Nonetheless, we have revised our report to eliminate the phrase
            that EPA “missed” this date and have added that EPA extended the
            deadline for addressing such emissions until December 2009.

Note 14 -   We clarified the report as suggested by the Agency.

Note 15 -   We corrected the footnote as requested by the Agency.

Note 16 -   While the IMO allows alternative means to meet the fuel standard for the
            sulfur content of fuel, it does not establish an emissions limit for SOx nor
            for PM. An emissions limit sets a limit on the actual emissions that can be
            legally emitted from a source (oceangoing vessels). A fuel standard, on
            the other hand, only limits the amount of sulfur contained in the fuel used
            by the source. Limiting the amount of sulfur in fuel will reduce a source's
            emissions, but the amount actually emitted may legally vary with engine
            age and condition, vessel load, speed, wind, ocean current, and other
            factors. The fact that Annex VI allows other methods to be used "as an
            alternative to that required by this Annex . . ." does not change the basic
            requirement – which is a fuel standard on the sulfur content of fuel, not an
            emissions limit for SOx or PM. We have clarified the text in this section


                                          75
                                                                              09-P-0125


            to make it clear that the agreement does not establish an emissions limit
            for SOx but does allow alternative means to meet the fuel standard for the
            limits on the percentage of sulfur contained in fuel.

Note 17 -   We have revised the text and added a clarifying footnote that includes the
            language suggested by the Agency.

Note 18 -   We revised the sentence in the final report to read: “According to OTAQ,
            it completed an additional modeling tool, called DrayFleet, after our draft
            report was issued.”

Note 19 -   We believe that issuing effective guidance is a good first step towards
            establishing consistent baseline emissions inventories. As the draft report
            pointed out, we believe that creating consistent baseline emissions
            inventories at the largest 75 U.S. ports may aid EPA in evaluating the
            effectiveness of future emission reduction activities at these ports.

Note 20 -   The OIG does not believe the section title is inaccurate. EPA has provided
            multiple ways for ports to participate in voluntary emission reduction
            programs. However, we believe that more work needs to be done. Some
            of the examples provided in OAR’s response to Appendix G below do not
            constitute implementation of voluntary initiatives to reduce air emissions.
            For example, the information provided in support of activities at the Port
            of Detroit (tours and discussions), and the Port of Indiana (meetings and
            an unawarded grant application) is not convincing evidence that voluntary
            initiatives have been implemented at these ports. During fieldwork for
            this evaluation, OTAQ and EPA region personnel identified regional
            diesel collaboratives as a significant component of EPA’s NCDC. The
            OIG is aware that being a member of one of these collaboratives is not the
            only indication of a port’s efforts to reduce air emissions through
            voluntary initiatives. However, because OTAQ and EPA region staff
            identified regional diesel collaboratives as a significant component of the
            NCDC, we emphasized stakeholder participation in these partnerships in
            our report. Due to the collaboratives’ ability to leverage EPA funding and
            partner with numerous local and regional stakeholders, the OIG viewed
            these partnerships as a primary means of EPA oversight and guidance for
            voluntary emission reduction activities at U.S. ports. Our report
            acknowledges the presence of EPA’s other voluntary partnership
            programs, e.g., the SmartWay Transport program and Clean Ports USA, as
            well as alternative means for working with EPA, e.g., working through
            State agencies, etc.

            As we stated in Chapter 3, EPA has not developed a transformation plan to
            link its desired strategic results with actions that EPA regions and
            stakeholders need to take. This type of plan would allow EPA to tie
            together the efforts of its various voluntary programs and allow the



                                          76
                                                                               09-P-0125


            Agency to assign priority, track results, and identify needs within its
            partnership program as a whole.

Note 21 -   The OIG is aware that participating in a diesel collaborative is not the only
            indication of the extent to which ports are taking voluntary measures to
            reduce diesel emissions. However, based on the significant role regional
            diesel collaboratives play in promoting voluntary initiatives through the
            NCDC, the OIG asked eight EPA regions to identify any ports not
            participating in their respective regional diesel collaboratives. We believe
            a reasonable expectation of participation in a diesel collaborative would
            include a commitment to action by the stakeholder.

            We have revised the report to include the Ports of Bridgeport and Stockton
            as participants in regional diesel collaboratives.

Note 22 -   No change needed.

Note 23 -   This section of the draft report acknowledged the budget constraints that
            EPA faced. However, $5.3 million of funding over a 6-year period does
            not appear to be significant when compared to the magnitude of air quality
            and human health concerns raised in certain port areas. We do not offer
            any specific conclusions regarding whether EPA’s level of funding was
            appropriate for reducing emissions from port sources. Instead, the section
            describes the level of EPA funding since FY 2002, and points out that a
            general lack of funding has hampered the Agency’s ability to implement
            voluntary initiatives to reduce air emissions at ports.

Note 24 -   EPA’s Strategy for Sustainable Ports was the strategic plan for reducing
            pollution at U.S. ports that EPA provided to the OIG. The Strategy for
            Sustainable Ports remains a public document on EPA’s Website with its
            stated purpose to “… support existing and new EPA programs and
            projects that will produce measurable results within the next 18 months…”

            If OAR intends for its efforts to reduce air emissions from U.S. ports to
            remain outside of the Strategy for Sustainable Ports, then an appropriate
            framework to oversee these activities should be in place. The OIG has
            concluded that such a framework is not in place. Therefore, we
            recommend that EPA create a transformation plan with appropriate
            designation of authorities and responsibilities, milestones, performance
            measures, other management controls, and an assessment of resources to
            assure the Agency’s port-related efforts under the NCDC are successfully
            implemented.

Note 25 -   We are pleased that EPA Region 1 is active with the ports in its Region,
            and encourage the Region to continue to promote Clean Ports USA and
            Northeast Diesel Collaborative efforts.



                                           77
                                                                                09-P-0125


Note 26 -   We look forward to EPA Region 1 continuing to promote voluntary diesel
            emission reduction projects at all ports in the region through its
            competitive grant process and the Northeast Diesel Collaborative.

Note 27 -   We believe that efforts, such as those outlined by EPA Region 1 above,
            are important steps in measuring progress to reduce air emissions at ports.
            We agree that EPA has the capacity and, we believe, the responsibility to
            facilitate efforts to assess emissions at U.S. ports and track improvements.
            We encourage the Agency to follow through on its commitment in the
            Strategy for Sustainable Ports to “work with the top 75 ports in the U.S. to
            develop port specific baseline emissions inventories and emissions
            reduction targets based on 1) EPA’s national port inventory guidance or 2)
            air emissions inventories completed by the port authorities in accordance
            with EPA-approved methodologies.”

Note 28 -   We are pleased that EPA Region 1 has taken an active role in fulfilling its
            commitments under the national Strategy for Sustainable Ports. We
            acknowledge in Chapter 3 of our report that “…EPA provides multiple
            ways for ports to participate in its programs.” While EPA may be
            involved with many different stakeholders, we concluded that the Agency
            does not have a sufficient management framework in place to transform
            all of these efforts into measurable results. The action items contained in
            EPA’s Strategy for Sustainable Ports do not contain the necessary
            milestones and management controls to ensure that the desired strategic
            results are linked with actions that EPA regions and stakeholders need to
            take.

Note 29 -   We have revised the report to include the Port of Bridgeport as a
            participant of the Northeast Diesel Collaborative.

Note 30 -   We are pleased that EPA Region 2 has expanded its efforts under the
            Northeast Diesel Collaborative to include the Puerto Rico Ports Authority,
            and that the Region is promoting voluntary emission reduction activities at
            ports. We revised the report to add a reference to the Port of New York
            and New Jersey regarding its use of ultra-low sulfur diesel fuel.

Note 31 -   Our report accurately describes the resources that were allocated and spent
            across EPA, and within Region 4, to address port air emissions from FY
            2002 through FY 2007. This description of resources is meant to illustrate
            that the lack of overall funding has hampered EPA’s implementation of
            voluntary strategies to reduce emissions at U.S. ports. EPA’s Office of
            Air and Radiation agreed with this assessment in its response to our draft
            report.

Note 32 -   We are pleased that EPA Region 4 is targeting the inclusion of ports in the
            Southeast Diesel Collaborative. As stated in the report, even ports located
            in attainment areas may cause local air quality impacts. We acknowledge


                                          78
                                                              09-P-0125


that EPA Region 4 is working to address these impacts through broader
efforts, and encourage the Region to continue expanding its work with
port stakeholders in the Southeast Diesel Collaborative.




                            79
                                                                            09-P-0125


                                                                        Appendix K

                                Distribution
Office of the Administrator
Acting Assistant Administrator for Air and Radiation
Director, Office of Transportation and Air Quality
Deputy Director, Office of Transportation and Air Quality
Acting Regional Administrator, Region 2
Acting Regional Administrator, Region 6
Acting Regional Administrator, Region 9
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Acting General Counsel
Acting Associate Administrator for Congressional and Intergovernmental Relations
Acting Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Air and Radiation
Audit Follow-up Coordinator, Region 2
Audit Follow-up Coordinator, Region 6
Audit Follow-up Coordinator, Region 9
Acting Inspector General




                                           80
